<html>
<title> - AMEND THE WILD AND SCENIC RIVERS ACT IN CONNECTICUT AND NEW JERSEY; INCREASE PIPELINE IN DELAWARE; AMEND THE NATIONAL HISTORIC PRESERVATION ACT; AND EVALUATE COASTAL REGION IN DELAWARE</title>
<body><pre>[Senate Hearing 109-213]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-213

 
  AMEND THE WILD AND SCENIC RIVERS ACT IN CONNECTICUT AND NEW JERSEY; 
INCREASE PIPELINE IN DELAWARE; AMEND THE NATIONAL HISTORIC PRESERVATION 
              ACT; AND EVALUATE COASTAL REGION IN DELAWARE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 435                                S. 1096

                           S. 1310                               S. 1378

                           S. 1627


                                     

                               __________

                           SEPTEMBER 22, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
25-194                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barry, Beth Anne Styler, Executive Director, Musconetcong 
  Watershed 
  Association....................................................    23
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........     2
Carper, Hon. Thomas R., U.S. Senator from Delaware...............    10
Corzine, Hon. Jon, U.S. Senator from New Jersey..................    40
Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........    16
Fowler, John, Executive Director, Advisory Council on Historic 
  Preservation...................................................    31
Hammerling, Eric, Executive Director, Farmington River Watershed 
  Association, Simsbury, CT......................................    19
Matthews, Janet Snyder, Associate Director for Cultural 
  Resources, National Park Service, Department of the Interior...     3
Nau, John L., III, Chairman, Advisory Council on Historic 
  Preservation...................................................    32
Roberts, Michael W., Operations Manager for the State of 
  Pennsylvania, Columbia Gas Transmissions Corporation...........    27
Slavin, Tim, Director, Historical and Cultural Affairs, State of 
  Delaware.......................................................    36
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    49


  AMEND THE WILD AND SCENIC RIVERS ACT IN CONNECTICUT AND NEW JERSEY; 
INCREASE PIPELINE IN DELAWARE; AMEND THE NATIONAL HISTORIC PRESERVATION 
              ACT; AND EVALUATE COASTAL REGION IN DELAWARE

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                     Committee Energy and Natural Resource,
                                                    Washington D.C.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD 364 Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. The time has come. I know there's a lot of 
things going on today. We have several hearings, and we may be 
doing some voting on the Floor, so I think we ought to get 
started. I'm sure some of our members will show up. So good 
afternoon. We welcome you to the subcommittee hearing today. 
Welcome to Associate Director Janet Matthews, and our other 
witnesses. Before we begin I would like to make a brief comment 
regarding the proposed National Park Service management 
policies.
    There have been several newspaper articles and editorials 
printed in the last month about this subject. It's important 
that no changes have been made at this point. The proposed 
changes are being reviewed as a draft document by the 
executives of the Interior Department. We expect to have the 
document available for public comment by the middle of October, 
I believe. And I've informed Assistant Secretary Craig Manson 
that the subcommittee plans to have an oversight hearing on 
this proposal. So I guess all I'm saying is there's been a lot 
of discussion and debate about it, as if that's the way it's 
going to be, and that's not necessarily the case. It is 
therefore discussion being studied. As a matter of fact, I 
think they're having staff meetings today with regard to it.
    So today our purpose in the hearing is to receive testimony 
on five bills that we have before us: S. 435, a bill to amend 
the Wild and Scenic Rivers Act to designate a segment of the 
Farmington River and Salmon Brook in the State of Connecticut 
for study for potential addition to the National Wild and 
Scenic River System and then for other purposes; S. 1096, a 
bill to amend the Wild and Scenic Rivers Act to designate 
portions of the Musconetcong River in the State of New Jersey 
as a component of the National Wild and Scenic River System, 
and for other purposes as well; S. 1310, a bill to authorize 
the Secretary to allow the Columbia Gas Transmission 
Corporation to increase the diameter of natural gas pipeline 
located in the Delaware Water Gap National Recreational area; 
S. 1378, a bill to amend the National Historic Preservation Act 
to provide appropriation authorization and improve the 
operations of the advisory council on historic preservation; 
and finally, S. 1627, a bill to authorize the Secretary of the 
Interior to conduct a special resources study to evaluate 
resources along the coastal region of the State of Delaware and 
to determine the suitability and feasibility of establishing a 
unit of the National Park System in Delaware.
    I thank all the witnesses for being here today. The first 
panel is Dr. Janet Snyder Matthews, Associate Director for 
Cultural Resources, National Park Service. So Director, if you 
would come forward please. Thank you for being here.
    [The prepared statement of Senator Biden follows:]

     Prepared Statement of Hon. Joseph R. Biden, Jr., U.S. Senator 
                             From Delaware

    Mr. Chairman: Today I wish to offer my support for the Delaware 
National Coastal Special Resources Study Act and join my colleague, 
Senator Carper, in asking this Subcommittee to support our efforts to 
construct the Delaware National Coastal Heritage Park. Delaware is the 
only State not to have a national park and we feel strongly that the 
time has come. Today, through this legislation, we are asking the 
Secretary of the Interior to study the feasibility of establishing a 
National Park Service unit in the State of Delaware.
    I know what most of you must be thinking. Do we have an area worthy 
of such designation? Do we have picturesque mountains like the Grand 
Tetons or the Great Smoky Mountains? Are people drawn to our coasts to 
find the spirituality of Joshua Tree? Do we possess landscape on par 
with the beauty and serenity of Acadia National Park? Well, in a word, 
yes. A little of all of the magnificence found in some of our Nation's 
most famous parks can be found in our State of Delaware and that is why 
the proposal presented by Senator Carper is so unique and worthy of the 
next step.
    I have to commend my colleague. Senator Carper brought together a 
committee of dedicated Delawareans to analyze the validity of a 
national park in the State of Delaware. After much deliberation, the 
committee suggested a series of four interpretive centers, scattered 
throughout the state, to highlight the many treasures of our state. 
While there are numerous sites identified in the proposal, I would just 
like to take a moment to note several that have been especially close 
to me in my years in the Senate.
    Pea Patch Island is a 228-acre park located off the coast of 
Delaware City, Delaware that houses Fort Delaware, one of our country's 
oldest Civil War-era fortifications and Delaware's oldest State Park. 
The island, with its fort, seawall and other archeological remains, is 
listed on the National Registry of Historic Places. The island also 
houses a State nature preserve, providing critical habitat to thousands 
of wading birds. It is also the largest heronry north of Florida.
    Delaware also played a special role in the Underground Railroad and 
the proposal will highlight the 18 sites in Delaware. These include a 
hideout at the Governor's mansion, the court house where abolitionist 
Thomas Garrett was tried, the Mother African Church in Wilmington where 
slaves were helped to escape under the cover of an African American 
Festival founded in 1814 and still celebrated today and numerous other 
sites utilized by the principal Underground Railroad conductor, Harriet 
Tubman.
    Finally, I would like to mention our coastline, our beaches. Now 
into September, we have said goodbye to another fantastic beach season 
with millions of people visiting our shores. The historic sites and 
wildlife refuges that dot our coastline are unique to the area and to 
the Nation.
    These links to Delaware's past are important to our Nation's future 
and I am proud to join my colleague in supporting this legislation.

  STATEMENT OF JANET SNYDER MATTHEWS, ASSOCIATE DIRECTOR FOR 
 CULTURAL RESOURCES, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Dr. Matthews. Thank you, Mr. Chairman, for the opportunity 
to appear before you today, to discuss the views of the 
Interior Department on S. 435, S. 1627, S. 1096, S. 1310, and 
S. 1378 that I will discuss in limited detail within the 
hearing time afforded.
    As to S. 435 and S. 1627, the Department supports enactment 
of both bills, with a technical amendment on each, attached to 
my testimony. S. 435 presents an opportunity to build on the 
success of the Upper Farmington River, designated in 1994, 
using the partnership-based model of Wild and Scenic River 
designations to study the addition of the Lower Farmington and 
Salmon Brook. The relevant communities--the State of 
Connecticut and the Farmington River Watershed Association--
have all come together to seek a similar study.
    S. 1627 is an opportunity for a special resource study of 
Delaware's long, distinguished history of Native American 
occupation, colonial settlement, and historic transportation. 
If authorized, the Department expects to coordinate this study 
with the recently authorized Captain John Smith Chesapeake Bay 
National Historic Water Trail Study. The Department supports 
requesting direction of future funding for completion of 
previously authorized studies. Currently, 25 studies are in 
progress, and we hope by the end of 2005 to complete and 
transmit six to Congress. The Department suggests consistency 
in timeframe for submitting such studies for S. 435 and S. 
1627, providing for submission no later than 3 years after 
funds are made available.
    With regard to the Musconetcong River as a component----
    Senator Thomas. Madam Secretary, would you mind if I 
interrupted you for just a second, and asked the Senator to 
come forward? He wanted to make a comment on the bill you've 
already talked about, if you don't mind.
    Senator Carper. Thanks, Mr. Chairman. I would love to hear 
the rest of Dr. Matthews' comments. I'm not in a big rush. 
Thank you very much for your consideration.
    Senator Thomas. We just didn't want you to be here longer 
than you had to be.
    Dr. Matthews. Thank you. With regards to the Musconetcong 
River as a component of the National Wild and Scenic River 
System, the Department supports this bill, which 13 riverfront 
municipalities have passed resolutions also in support of. With 
regard to S. 1310, to authorize the Secretary of the Interior 
to allow Columbia Gas Transmission Corporation to increase the 
diameter of the natural gas pipeline in the Delaware Water Gap 
National Recreation area, the Department supports with a 
technical amendment attached to the testimony.
    With regard to S. 1378, a bill to amend the National 
Historic Preservation Act, to provide appropriation 
authorization, and improve the operations of the advisory 
council, the Department supports with an amendment attached to 
extend the authorization of the Historic Preservation Fund for 
10 years until 2015. The bill would also make a number of 
changes to the authority for the advisory council, and change 
the authorization level for the council from $4 million to such 
sums as may be necessary. And it makes permanent the council 
authorization.
    In 1966, the Historic Preservation Fund grew out of the 
recommendations of the Special Committee on Historic 
Preservation of the U.S. Conference of Mayors. In the 1960's 
and the 1970's the Historic Preservation Grant Program evolved, 
and in a remarkably productive partnership with State 
governments on a cost-sharing basis, in cooperation with State 
historic preservation offices and tribal historic preservation 
offices, local governments and private entities. Today, for 
example, we have a national register listing totaling nearly 
80,000 properties, inclusive of some 1.4 million properties 
found throughout our neighborhoods, towns, tribal lands, 
special places, cities, roadways, and waterways. Also, for 
example, in cooperation with the Internal Revenue Service, the 
Federal tax rehabilitation credit program has rehabilitated 
over 1,200 National Register properties, created 50,000 jobs, 
15,000 new housing units, and generated $3.8 billion in 
leveraged private investments in 2004 alone.
    For another example, in fiscal year 2005 alone, the Save 
America's Treasures grant program awarded 145 matching grants 
to 43 States and the District of Columbia, totaling $29.5 
million. The Historic Preservation Fund targets grant support 
for partnership activities to State historic preservation 
offices, tribal historic preservation offices to preserve 
America's native cultures and Historically Black Colleges and 
Universities for preservation of significant campus buildings. 
Save America's Treasures Grant Programs are for endangered, 
nationally significant properties, and the Preserve America 
grants are for heritage tours and economic revitalization. 
Therefore, these grant programs not only preserve historic 
resources, they are proven attractors of the new economic 
investment.
    With regard to the advisory council, this critical 
government agency protects historic resources while 
facilitating government-sponsored development through 
compliance tools under section 106. We defer to the advisory 
council in your upcoming panel for discussion of these specific 
provisions; however, we support the council's effectiveness in 
strengthening its role in considering the historic resources of 
our Nation to benefit future generations.
    The Historic Preservation Fund for almost 40 years has been 
highly successful in meeting the objectives established by 
Congress in preserving the increasingly vital historic 
resources that define our Nation. The proposed amendment to 
extend the authorization to 2015 is attached to the testimony.
    Mr. Chairman, this concludes my prepared remarks, I would 
be pleased to answer any questions.
    [The prepared statement of Dr. Matthews follows:]

  Prepared Statement of Janet Snyder Matthews, Associate Director for 
 Cultural Resources, National park Service, Department of the Interior

                               ON S. 435

    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss the views of the Department of the Interior on S. 435, 
a bill to amend the Wild and Scenic Rivers Act to designate a segment 
of the Farmington River and Salmon Brook for study for potential 
addition to the National Wild and Scenic Rivers System. The Department 
supports enactment of this legislation with one technical amendment.
    While the Department supports the authorization of this study, it 
is important that future funding requests go towards completing 
previously authorized studies. There are currently 25 studies in 
progress, and we hope to complete and transmit 6 to Congress by the end 
of 2005. Therefore, the Department will focus the funding provided 
towards completing these studies.
    S. 435 presents the opportunity to build from the success of the 
Upper Farmington River, which was designated a component of the 
National Wild and Scenic Rivers System in 1994. At that time, the 
partnership-based model of Wild and Scenic River designations, with a 
limited federal role and no federal land acquisition authority, was 
essentially an experiment. Now, 11 years later, it is a testament to 
the success of that partnership approach that the Lower Farmington and 
Salmon Brook communities, the State of Connecticut, and the Farmington 
River Watershed Association have all come together to seek a similar 
study.
    The portion of the Farmington River under consideration runs 
approximately 40 miles from the Upper Farmington's downstream endpoint 
to the Connecticut River. The Lower Farmington has its own distinct 
character that compliments the ``outstandingly remarkable'' fish, 
wildlife, historic and recreational resources that qualified the upper 
river for designation. A notable historic feature, the Farmington 
Canal, served as an important regional transportation link from its 
opening in 1825 until the mid-1840's when railroad tracks were laid 
upon its obsolete towpath. Today, much of this feature is being 
converted into a recreational multi-use path and greenway, providing 
outstanding access to recreational, scenic and historic attributes of 
the river valley.
    In July 2005, results of a U.S. Fish and Wildlife Service survey of 
the Lower Farmington and Salmon Brook uncovered what is believed to be 
the State of Connecticut's largest populations of the federally 
endangered dwarf wedge mussel (Alasmidonta heterodon). Salmon Brook is 
a major tributary of the Farmington River, and is well known for its 
outstanding scenery and trout fishing.
    It is significant that the communities and interest groups 
associated with the Lower Farmington and Salmon Brook have had the 
unique opportunity to observe and interact with the National Park 
Service and the Farmington River Coordinating Committee (created to 
oversee management of the Upper Farmington Wild and Scenic segment) for 
more than ten years. The development of these relationships should 
facilitate the completion of the study required by this legislation.
    The Department suggests one amendment to S. 435. Section 2 of the 
bill requires that a report on results of the study be submitted to the 
Senate and House authorizing committees no later than three years after 
the date of enactment of the Act. We believe it more feasible to 
provide that this occur no later than three years after funds are made 
available based on the number of studies currently being conducted by 
the Department.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.
Proposed amendment to S. 435, Lower Farmington River and Salmon Brook 
        in the State of Connecticut for study for potential addition to 
        the National Wild and Scenic Rivers System.
    On p. 2, line 17, strike ``the date of enactment of this Act'' and 
insert ``funds are made available to carry out this Act''.

                                 S. 1096

    Mr. Chairman, thank you for the opportunity to appear before the 
Committee to present the Department of the Interior's position on S. 
1096, a bill to amend the Wild and Scenic Rivers Act by designating 
portions of the Musconetcong River in New Jersey as a component of the 
National Wild and Scenic Rivers System. The Department supports 
enactment of S. 1096.
    The Musconetcong River is the largest New Jersey tributary to the 
Delaware River. The area of the river, nestled in the heart of the New 
Jersey Highlands, contains a remarkably diverse array of natural and 
cultural resources. The limestone geologic features present in the 
Musconetcong River corridor are unique in the state, and the steep 
slopes and forested ridges in the upper segments of the river corridor 
contrast with the historic villages, pastures, and rolling agricultural 
lands at the middle and lower end of the river valley.
    The impetus for the designation of the Musconetcong began in 1991, 
when residents in the Musconetcong River Valley organized a petition 
drive in support of efforts to protect the river. The petitions called 
for the protection of the Musconetcong River under both the National 
Wild and Scenic Rivers Act and New Jersey Wild and Scenic Rivers 
Program.
    In 1992, Congress passed legislation authorizing the National Park 
Service to study the eligibility and suitability of the Lower Delaware 
River for addition to the National Wild and Scenic River System. In 
1997, 18 of 19 Musconetcong River municipalities voted to have the 
National Park Service determine the eligibility and suitability of the 
Musconetcong River for designation into the National Wild and Scenic 
River System. As a part of the study effort, a Musconetcong Advisory 
Committee, comprised of residents representing each municipality, was 
formed. This committee, with assistance from the National Park Service 
through its authority to study the Lower Delaware River, completed a 
Resource Assessment and Eligibility and Classification Report (1999) as 
well as a Musconetcong River Management Plan (April, 2003). The report 
found that approximately 24 miles of the river are eligible for 
inclusion into the National Wild and Scenic Rivers System because of 
their free-flowing nature and outstandingly remarkable recreational, 
scenic, cultural, and wildlife and habitat values.
    The Musconetcong River Management Plan was developed cooperatively 
and calls for a management framework that acknowledges the importance 
and preference for local leadership, and the additional protections 
afforded by national wild and scenic river designation. A key principle 
of the management framework as proposed in the plan is that existing 
institutions will continue to play primary roles in the long-term 
protection of the Musconetcong River. With respect to facilitating and 
coordinating potentially diverse interests among residents, landowners, 
municipalities, counties, states and non-governmental organizations 
(NGOs), the plan proposes the formation of a Musconetcong River 
Management Committee.
    The bill provides that the administration for the 24.2-mile 
designated river segment is to be consistent with the cooperatively 
developed Musconetcong River Management Plan (2003) and is to be 
undertaken in cooperation with federal, state, county and municipal 
governments. The bill also identifies an additional river segment that 
would be suitable for designation by the Secretary of the Interior only 
at such time as it can be demonstrated that adequate local support for 
such designation exists within the affected local jurisdictions. The 
costs associated with a designated wild and scenic river in the 
Northeast Region of the National Park Service average $150,000 annually 
(for cooperative agreements with river partner organizations), and we 
would expect the costs to be similar for this river, although the 
expenditures per river will likely decline as more designated rivers 
have to share limited resources. The region will handle the work 
associated with the newly designated river with existing staff. Any 
funding for cooperative agreements with the river's partner 
organizations will be dependent upon annual appropriations and 
departmental funding priorities.
    This completes my prepared statement. I would be happy to answer 
any questions you may have regarding this bill.

                               ON S. 1310

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1310, a bill to authorize the 
Secretary of the Interior to allow the Columbia Gas Transmission 
Corporation to increase the diameter of a natural gas pipeline located 
in the Delaware Water Gap National Recreation Area. The Department 
supports enactment of this legislation with one technical amendment.
    This bill provides for the Secretary of the Interior to enter into 
an agreement with the Columbia Gas Transmission Corporation, for no 
consideration, to grant an easement to permit the enlargement of an 
existing natural gas pipeline from a diameter of 14 inches to no more 
than 20 inches. It provides for the Corporation to submit resource 
information and appropriate restoration and mitigation plans under 
terms and conditions that assure the protection of the natural and 
cultural resources of the national recreation area. In addition, the 
Corporation will have to comply with other requirements for 
certification set forth by the Federal Energy and Regulatory Commission 
to permit an increase in the diameter of the pipeline. Finally, the 
bill states that the Secretary shall not grant any additional increases 
in the pipeline's diameter and limits the pipeline's right-of-way to 
its existing 50-feet width.
    Pipeline 1278 is a part of the Columbia Gas Transmission 
Corporation's interstate pipeline network that delivers natural gas to 
the Northeastern and Mid-Atlantic states from production areas in the 
southwest and Appalachia, 3.5 miles of which runs through sections of 
the Delaware Water Gap National Recreation Area. Pipeline 1278 was 
constructed in the mid-1940's on easements purchased from landowners. 
When land was acquired for the national recreation area, five parcels 
of land were acquired subject to easements for pipeline 1278.
    Pipeline 1278 underwent periodic testing in 2002. The inspection 
showed that the pipeline was showing its age, and there were numerous 
instances that the wall of the pipeline was thinning. The Corporation 
was issued a Corrective Action Order by the Department of 
Transportation. The order required the Corporation to reduce the 
operating pressure in the pipeline until such time as all anomalies in 
the pipeline could be repaired. A determination was made by the 
Corporation that the best way to repair the current pipeline was to 
replace the existing pipeline with a new, state of the art, 
cathodically protected steel pipe. At the same time, the Corporation 
decided to upgrade the diameter of the pipeline from 14 inches to 20 
inches.
    The National Park Service does not have legal authority to issue 
rights-of-way for petroleum pipelines across parklands. The deeds for 
the five parcels of land, subject to easements for the Corporation 
pipeline, are very specific about the rights that the Corporation 
purchased back in the 1940's. Congressional action is needed to allow 
the increase in pipeline size on two of the parcels totaling 800 feet 
of parkland. Congressional action is not required for the remaining 
three parcels, since the deeds permit the increase in pipeline size.
    This legislation simply permits the Columbia Gas Transmission 
Corporation to fully utilize an easement they purchased 50 years ago. 
By order of the Department of Transportation, the pipeline must be 
repaired or replaced, and the replacement of the current pipeline with 
one of a larger diameter does not increase the impact to parklands of 
the replacement project. The permit issued to the Corporation has 
sufficient safeguards in it to insure the rehabilitation and 
restoration of parklands disturbed by the replacement project.
    The one technical amendment we suggest would be to correct the 
right-of-way number on p. 2, line 9 by striking ``16414'' and inserting 
``16413''.
    This concludes my prepared testimony, Mr. Chairman. I would be 
pleased to answer any questions you or the committee might have.
Proposed amendment to S. 1310, Delaware Water Gap National Recreation 
        Area Natural Gas Pipeline Enlargement Act.
    On page 2, line 9, strike ``16414'' and insert ``16413''.

                               ON S. 1378

    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss the views of the Department of the Interior on S. 
1378, a bill to amend the National Historic Preservation Act to provide 
appropriation authorization and improve the operations of the Advisory 
Council on Historic Preservation.
    The Department supports S. 1378 with an amendment to extend the 
authorization of the Historic Preservation Fund for ten years until 
2015.
    S. 1378 would extend the authorization of the Historic Preservation 
Fund for an additional six years. The bill would also make a number of 
changes to the authority for the Advisory Council on Historic 
Preservation (ACHP) by increasing the membership of the ACHP, 
authorizing the governor appointed to the ACHP to have a designee serve 
in his place, revising the number of members that constitute a quorum, 
revising various financial and administrative authorities of the ACHP, 
authorizing the ACHP to solicit donations, and authorizing the ACHP to 
enter into cooperative agreements with other federal agencies to 
improve the effectiveness of the administration of grant or assistance 
programs to help meet the purposes of the National Historic 
Preservation Act.
    In addition, the bill also changes the authorization level for the 
ACHP from $4 million per fiscal year to such sums as may be necessary. 
It also makes the ACHP permanent instead of reauthorizing the ACHP for 
the standard five-year period.
    The Historic Preservation Fund grew out of the recommendations of 
the 1966 Special Committee on Historic Preservation of the U.S. 
Conference of Mayors. The Special Committee recommended the 
establishment of a grant program to State and local governments to 
carry out inventory and survey programs in coordination with the 
National Park Service. In 1970, a historic preservation grant program 
was established and administered by the National Park Service in 
partnership with State governments on a cost-sharing basis. In 1976, 
the Historic Preservation Fund was created with revenues from Outer 
Continental Shelf oil and gas production.
    Over the years, the Historic Preservation Fund has provided 
essential support to the State Historic Preservation Offices that 
operate the national program at the State level. Through the work of 
our partners in the States, we can cite significant achievements over 
the past year:

  <bullet> The National Park Service approved 1,537 new listings, which 
        include 46,619 properties, in the National Register of Historic 
        Places. This brings the total number of National Register 
        properties to 79,617 listings that include over 1.4 million 
        properties.
  <bullet> Jointly administered by the National Park Service and the 
        Internal Revenue Service, and in partnership with the State 
        Historic Preservation Officers, the Historic Preservation Tax 
        Incentives resulted in the rehabilitation of over 1,200 
        historic properties listed in the National Register, creating 
        over 15,000 new housing units and generating $3.8 billion in 
        leveraged private investment--all during 2004. Since its 
        inception in 1976, this tax incentives program has generated 
        over $33 billion in historic preservation activity.
  <bullet> In FY 2005, the Save America's Treasures (SAT) grant program 
        awarded a total of 145 matching grants in 43 states and the 
        District of Columbia totaling $29.5 million. 337 applications 
        were received that totaled $134 million. The SAT program is 
        administered by the National Park Service, the National 
        Endowment for the Arts, the National Endowment for the 
        Humanities, and the Institute of Museum and Library Services.

    Over the years, the Historic Preservation Fund authority has been a 
highly flexible authority for developing targeted grant programs that 
address the broad purposes of the National Historic Preservation Act. 
They include the grants to Indian Tribes to support Tribal Historic 
Preservation Offices and project grants to preserve America's native 
cultures; grants to Historically Black Colleges and Universities to 
preserve significant campus buildings; the Save America's Treasures 
Grant Program for threatened nationally significant properties; and 
more recently, the Preserve America grant program for heritage tourism, 
including education, and economic revitalization. These grant programs 
not only preserve historic resources, they attract new economic 
investment.
    Reauthorization of the ACHP also is an important objective as we 
work with this critical governmental agency to help protect historic 
resources while facilitating government-sponsored development. We are 
working closely with the ACHP on a number of important initiatives, 
including the Preserve America program and compliance tools.
    We understand that the ACHP will discuss the specific provisions of 
S. 1378 that affect the ACHP. We believe these changes will increase 
the ACHP's effectiveness and strengthen the important role the ACHP has 
played in preserving the historic resources of our country.
    As recommended at the beginning of this testimony, the Department 
believes that the authorization of the Historic Preservation Fund 
should be extended for ten years instead of six. The fund is now almost 
40 years old. It has been highly successful in meeting the objectives 
established by Congress in preserving the historic resources of this 
country. We believe this success calls for a longer authorization than 
previously has been provided, while allowing Congress the traditional 
oversight role it has always maintained. The proposed amendment is 
attached to the testimony.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or members of the committee may 
have.
Proposed amendment to S. 1378, National Historic Preservation Act 
        Amendments Act of 2005.
    On page 2, line 6 strike ``2011'' and insert ``2015''.

                               ON S. 1627

    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's views on S. 1627, a bill to authorize the 
Secretary of the Interior to conduct a Special Resources Study along 
the coastal region of the State of Delaware. The Department supports 
enactment of the legislation with one amendment regarding the time 
period provided for the study.
    While the Department supports the authorization of this study, it 
is important that future funding requests go towards completing 
previously authorized studies. There are currently 25 studies in 
progress, and we hope to complete and transmit 6 to Congress by the end 
of 2005. Therefore, the Department will focus the funding provided 
towards completing these studies.
    The coastal region of the state of Delaware has a long and 
distinguished history of Native American occupation, colonial 
settlement and contributions to this nation's heritage. The region was 
populated by the Lenni Lenape and Nanticoke tribes before the period of 
European discovery. Early explorations of Delaware's coastline were 
made by the Spaniards and Portuguese in the sixteenth century, by Henry 
Hudson in 1609 under the auspices of the Dutch, by Samuel Argall in 
1610, by Cornelius May in 1613, and by Cornelius Hendricksen in 1614. 
During a storm, Argall was blown off course and sailed into a strange 
bay, which he named in honor of his governor--Lord De La Wan.
    In 1631, 11 years after the landing of the English pilgrims at 
Plymouth, Massachusetts, the first white settlement was established by 
the Dutch. This was followed in 1638 by the first Swedish settlement at 
``The Rocks'' on the Christina River, where a fort was built called 
``Fort Christina'' after the young queen of Sweden. Fort Christina in 
Wilmington, with a monument created by the noted sculptor Carl Milles 
and presented by the people of Sweden, perpetuates the memory of these 
first settlers and preserves ``The Rocks'' where they first landed.
    In the autumn of 1655, Peter Stuyvesant came from New Amsterdam 
with a Dutch fleet, subjugated the Swedish settlements and established 
the authority of the Colony of New Netherlands throughout the area. The 
Dutch were eventually replaced by the English. In 1776 at the time of 
the Declaration of Independence, Delaware not only declared itself free 
from the British Empire, but also established a state government 
entirely separate from Pennsylvania. The State became the first to 
ratify the United States Constitution on December 7, 1787.
    The importance of the Delaware Bay and River to coastal defense 
during the American Revolution, the War of 1812 and the Civil War was 
marked by the establishment of fortifications to thwart enemy ships 
from traversing the Delaware River to Philadelphia. Many of these 
resources remain to remind current generations of past struggles for 
independence, early nationhood, and preservation of the Union. Delaware 
became an important component of the Underground Railroad prior to the 
elimination of slavery during the Civil War. The Delaware River was and 
remains an important transportation link connecting Delaware and 
portions of Pennsylvania and New Jersey to world markets.
    The coastal region of Delaware also contains important natural 
resources adjacent to and including Delaware Bay and the Delaware 
River. It provides resource-based recreational opportunities for 
fishing, boating, swimming and crabbing. Delaware Bay is a major 
staging area for shorebird migration with truly spectacular numbers 
visible during the peak of migration. The region is replete with state 
parks and wildlife areas that protect resources and provide important 
opportunities for the public to appreciate and enjoy Delaware's natural 
treasures.
    The region also has played an important role in industry, including 
the exploitation of water power. The outbreak of the Civil War, for 
example, found Wilmington with a strong industrial base, which 
responded to meet the great demands of waging war. Wilmington products 
included ships, railroad cars, gunpowder, shoes, tents, uniforms, 
blankets and other war-related goods. By 1868, Wilmington was producing 
more iron ships than the rest of the country combined and it rated 
first in the production of gunpowder and second in carriages and 
leather. Industries thrived along the Delaware, especially the 
chemicals and materials company that was founded by the DuPont family 
in the 19th century and continues to be one of the largest chemical-
related companies in the world.
    The Department suggests one amendment to S. 1627. Section 4 of the 
bill requires that a report on findings, conclusions and 
recommendations of the study be submitted to the Senate and House 
authorizing committees no later than one year after funds are made 
available to carry out the Act. We believe it more feasible to provide 
that this occur no later than three years after funds are made 
available based on the number of Special Resource Studies currently 
being conducted by the Department.
    If this study is authorized, the Department expects to coordinate 
this study with the recently authorized Captain John Smith Chesapeake 
National Historic Watertrail study, which will be evaluating resources 
along the Chesapeake Bay and its tributaries including portions in the 
State of Delaware.
    Mr. Chairman, that concludes my testimony. I will be pleased to 
answer any questions from members of the Committee.
Proposed amendment to S. 1627, Delaware National Coastal Special 
        Resources Study Act.
    On page 4, line 11, strike ``1 year'' and insert ``3 years''.

    Senator Thomas. Thank you. Thank you very much. With regard 
to S. 1378, now this is called an advisory committee, and I 
understand that there are some responsibilities there beyond 
advisory; is that correct?
    Dr. Matthews. Yes, sir.
    Senator Thomas. That has changed then, really, the purpose 
and the role of this council?
    Dr. Matthews. Well, Mr. Chairman, I would respectfully 
defer to Mr. Fowler, who is on the next panel, to deal with the 
specific provisions of S. 1378.
    Senator Thomas. Okay. Let's see now. What was your position 
on S. 1310?
    Dr. Matthews. On S. 1310, our position is to support, with 
one technical amendment. We have the pipeline across the 
Delaware Water Gap National Recreation Area. When that property 
was acquired for the National Recreation Area in the 1960's, 
the pipeline easements were 20 years old, they had been entered 
into with private owners in the 1940's, and of the five private 
property title acquisitions, two of them came without 
authorization, within the easement language to allow for 
increasing the diameter of the pipe. Two of the parcels 
remaining require congressional authorization for enlargement 
and activity.
    Senator Thomas. Thank you very much. I have no further 
questions.
    Dr. Matthews. Thank you, sir.
    Senator Thomas. Senator Dodd, welcome. Senator Carper, you 
were here first.
    Senator Carper. I don't have any great time pressures. I 
would be happy to yield.

       STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR 
                         FROM DELAWARE

    Senator Carper. Mr. Chairman, Senator Akaka is in the next 
room and will be here any minute. I really appreciate the 
opportunity to come by and testify on behalf of S. 1627, which 
is legislation Senator Biden and I have introduced in the 
Senate. Congressman Mike Castle is introducing a companion bill 
in the House. I also want to thank Dr. Matthews for the 
comments she has just made in support of our proposal, and I 
want to thank Jim Slavin, who is going to be here today, the 
Director of the Division of Historical and Cultural Affairs 
from my State, who will testify on behalf of the committee that 
has worked on this project. I want to thank Dr. Jim Soles, a 
legendary professor from the University of Delaware who led a 
12-member committee in the deliberations over the last year or 
so, as we contemplated what kind of park to create and ask for. 
I really want to thank the hundreds of Delawarians who 
participated from one end of Delaware to the other to give us 
their ideas and their thoughts on a national park for our 
State. I want to thank Senator Biden and Congressman Castle for 
their support, and for the letters of support. And in fact, I 
would ask, if I could, Mr. Chairman, to have entered into the 
record statements of support from Senator Biden and Congressman 
Castle, and a short statement here that kind of outlines the 
actual proposal itself.
    Senator Thomas. Without objection.
    Senator Carper. Here in the audience are Brian Bushweller 
and Latisha Omeruah, who are members of my staff who worked on 
this, and Tom Weller, one of my legislative aides who has also 
worked on this project, and we're grateful for that.
    Two summers ago, my family was getting ready to go on 
vacation and we wanted to go someplace that had great national 
parks and we finally settled on Alaska. And I remember, we went 
to a big park called Denali that some of you in this room have 
probably heard of and maybe been to. Denali's several times the 
size of my State. We had a chance to go all over Alaska and to 
visit and to check it out.
    And as we went through that website of the national parks, 
we saw information not only on Alaska, but Alabama, and other 
States, but we couldn't find anything about national parks in 
Delaware. And the reason why there was information for 49 
states with national parks, or units of national parks, and 
there's nothing about Delaware is because we don't have one. 
And it's not that we don't have useful, beautiful places to 
see, or natural scenic beauty, we do. It's not that we don't 
have a lot of history in our State, we have plenty of that. But 
what we don't have is a unit of the national parks. And along 
the way people say to me, why don't we do something about this. 
And finally I got in a position where maybe we could do 
something about it, and we brought this proposal to you in your 
State in Wyoming, which is where we want to go on vacation next 
year.
    Senator Thomas. That's very good and thoughtful of you.
    [Laughter.]
    Senator Carper. Listen to this--there are 11 national park 
units: Big Horn Canyon National Recreation Center, California 
National Historic Trail, Devil's Tower National Monument, Fort 
Laramie, and the list goes on down to Yellowstone National 
Park. It's just a great venue. And I look at Hawaii, and 
Senator Akaka is not here, but he has eight of them in Hawaii. 
I can't say some of these names, but they've got historic 
trails, national parks, and memorials and all kinds of places 
to visit. And when you look through the membership of this 
committee and all the States that are represented on this 
committee, you've got folks who have their State's national 
parks, they've got national monuments, they've got national 
preserves, they've got national historic parks, they've got 
national memorials, national battlefields, national cemeteries, 
national recreation areas, national seashores, national 
lakeshores, national rivers, national park plays, national 
trails, but in Delaware, we don't have any of those, not a one. 
And we would like to do something about that.
    The legislation that we introduced--with the support of 
Senator Biden and Congressman Castle--seems to end that 
distinction for our State. And I ask you, Mr. Chairman, and 
Senator Akaka, and others on the committee, for your support of 
our proposal.
    I want to just briefly, if I could, describe the process 
that we've been through. We actually put on the website the 
idea that we wanted to solicit from Delawarians whether or not 
they thought we ought to have a National Park, and if so, what 
would be a good idea. We had hundreds of people who responded, 
and gave us really some terrific ideas. We created a committee 
for people throughout our State, led by Dr. Jim Soles, who's 
just a great professor, just retired from the University of 
Delaware. They went all over our State and they held hearings 
and got all kinds of people involved in suggesting ideas and 
invited the Delaware Division of Parks and Recreations to 
participate in it with our committee. They invited the Division 
of Historical and Cultural Affairs to participate, and they 
did. And we invited the National Park Service themselves, from 
the Philadelphia office, to participate, and they did.
    Among the great ideas that we got are these. Fort 
Christina--believe it or not, the first Swedes and Finns who 
came to America came into America in what is Wilmington, 
Delaware, and they proclaimed the colony of New Sweden. I think 
the Finns wanted to proclaim it the colony of New Finland, but 
the Swedes won out and so it became the colony of New Sweden. 
They built the first fortification for settlers in Delaware 
Valley, right there on the banks of the Christina River in what 
is now Wilmington Delaware, so that was among the ideas that 
was suggested.
    We have a big fort right out in the middle of the Delaware 
River, about halfway between Delaware and New Jersey, where we 
held about 30,000 Confederate soldiers during the Civil War. 
It's called Fort Delaware, on Pea Patch Island. It hooks up 
with a couple of other forts, one on the New Jersey side and 
one on the Delaware side. Some people thought that would be a 
great national park idea. We have all kinds of fortifications. 
Anybody who's ever been to Delaware in the summertime--Dewey 
Beach--has seen these towers that were used during World War II 
to spot submarines and coming up the Delaware Bay and the 
Delaware River, and all kinds of really neat fortifications 
that are still in largely good shape.
    We have underground railroads. We're a big part of the 
Underground Railroad in Delaware. We have the Golden Fleece 
Tavern in Delaware, which was where the Constitution was first 
ratified. We were the first State, on December 7, 1787, to 
ratify the Constitution, right there in Dover, Delaware, the 
John Dickinson plantation. It's fortuitous Senator Dodd is 
sitting next to me. He'll recall the Connecticut Compromise 
that was adopted. They had the Constitutional Convention, where 
we were going to have a bicameral Congress. The Senate and 
House were largely the work--not entirely, though largely the 
work of a guy named John Dickinson, who grew up on the 
Dickinson Plantation.
    There's a whole lot more. All those ideas were suggested to 
us, and any one of them alone would, frankly, I think, be a 
pretty good idea for a national park. But you know what ended 
up happening, the committee said we're not going to pick any 
one of them, what we would like to do is to kind of thread them 
all together. And the thread that kind of unites them all is 
they are part of our coastal heritage, along with all the 
Indians that used to live there--the Lenni Lenape Indians and 
Nanticoke Indians--and all the early work of the DuPont Company 
on the Brandywine River, creating mills and gun powder. All 
this stuff just ties together, and we call it Personal Heritage 
National Park. That unites them all.
    Imagine, if you would, Mr. Chairman, four bicycle wheels. 
Imagine a bicycle wheel with a hub in Wilmington, Delaware, 
where the first Swedes and Finns came to shore. The hub would 
be really the center if you will the park and really the 
closest thing to a traditional park. Those spokes would come 
out from the hub and connect to different attractions in other 
parts of our State. Those attractions are held in some cases by 
the State, the State parks, by non-profit organizations, and by 
other owners. But the attractions would be on the perimeter of 
the wheel, if you would. Put another hub just south of there, 
about 30 to 40 miles south of Wilmington. And on the spokes 
from that hub would be, among other places, Fort Delaware, that 
I mentioned, where we had all these 30,000 Confederate troops 
during the Civil War. Come on south a little bit further down 
toward the central part of our State and you have another hub. 
And the spokes would go out to, among other places, Primehook, 
where we have literally hundreds of thousands of migratory 
birds that are flying transcontinental across the world and 
they stop for lunch in Delaware.
    Senator Dodd. At the Golden Fleece Tavern?
    [Laughter.]
    Senator Carper. And we pick up the tab.
    [Laughter.]
    Senator Carper. And the last hub would be down in the 
southern part of our State, where we have all of our beaches. 
And there would be a bunch of attractions and so forth that 
would come out of that hub, as well. It's a different type of 
national park, it's really sort of unique and it's also, I 
might add, pretty inexpensive. And at a time when folks from 
the National Park Service will tell you that they are pressed 
for money, what we have come up with is an idea that we think 
ties together a history, ties together a culture, provides for 
a lot of beauty to share with people from around the country 
and around the world, and does it in a way that shows the 
sensitivity to the fact that we have a huge budget deficit.
    And with that in mind, I will just close with this, Mr. 
Chairman. Last Saturday was U.S. Constitution Day. And we 
celebrate it in our State, because the Constitution is a big 
deal for us, given the fact that we were the first State. And 
Saturday, I think it was, September 17, 1787, the 
Constitutional Convention adopted the Constitution. About 3 
months later, we became the first State to ratify it. Delaware 
became the first State on December 7, 1787. We were the first 
State for one whole week. For one whole week, we were the 
entire United States of America, then we opened things up and 
let in Maryland and Pennsylvania, Connecticut, Wyoming, Hawaii 
and the others. And we were proud of being the first State. And 
we're not happy about being the last state to get a unit of the 
national park, but we think our time has come. We've got a 
great project here and a great proposal. A lot of people worked 
really hard on it, and I am pleased to present it on their 
behalf.
    [The prepared statement of Senator Carper follows:]

Prepared Statement of Hon. Thomas R. Carper, U.S. Senator From Delaware
          A Proposal: Delaware National Coastal Heritage Park

                               BACKGROUND

    In 2002, U.S. Senator Tom Carper undertook a public process to 
solicit ideas and assess support for the creation of a National Park 
unit in Delaware. Delaware is the only state without a designated unit 
of the National Park system. Using an internet survey of the general 
public and a mail survey of various organizations along with 
discussions with many individuals, Senator Carper found significant 
interest in creating some kind of National Park unit. In 2003, he 
established a committee of twelve Delawareans representing all three 
counties and the City of Wilmington to look more closely at suggestions 
that had been made for such a unit and to make recommendations to the 
Senator with regard to which of the suggestions, if any, the Senator 
might pursue. Among other activities, the Committee held public 
workshop meetings in each county and the City of Wilmington to further 
solicit input and ideas from interested citizens. The Committee's 
ultimate recommendation was an amalgam of several individual 
suggestions. Senator Carper accepted the recommendation and will 
propose that Congress authorize a formal study of the feasibility of 
the committee's proposal.

                              THE PROPOSAL

    Senator Carper proposes the creation of a Delaware national coastal 
heritage park. The park would be unique among national parks in both 
its physical dimensions and its theme. Physically, the park would be 
comprised of a series of connected interpretive centers and sites. The 
centers would largely direct visitors to already existing attractions 
related to the theme of the park. Thematically, the park recognizes 
that Delaware's coastal region, as interpreted through the historic, 
cultural, and natural environment, provides an experience of interwoven 
threads that hold great significance in the history of the United 
States. It also recognizes that the region offers outstanding 
opportunities for resource protection, heritage education and 
recreation.

                              THE CONCEPT

    The concept of the Park has its roots in the notion that Delaware's 
coastal region is a near-perfect microcosm of America's coastal 
history. It acknowledges that coastal regions have always played a key 
role in human activity and that they will continue to do so. From the 
beginning of our nation's history, Delaware has been the location of 
nationally important and emblematic themes of development. The 
persistent rural character of the state situated in such an intensely 
developed east coast corridor afforded the preservation of many sites, 
buildings, structures and vistas to provide the visitor an unparalleled 
opportunity to experience the coastal American landscape and understand 
its role in the development of the nation. These themes include:

          1. History of Indigenous Peoples. Delaware is rich with the 
        history of Native American tribes such as the Nanticoke and 
        Lenni Lenape.
          2. Colonization and Establishment of the Frontier. Among the 
        most significant developments in this regard are the history of 
        the first European settlers in the Delaware Valley who built 
        fortifications for the protection of settlers like Fort 
        Christina in 1638 at the Rocks in Wilmington, which was 
        established to protect the Swedish and Finnish settlers, and 
        Fort Zwaanendael to protect the Dutch in Lewes. Also, Delaware 
        witnessed the increased influence of the English and Dutch that 
        accompanied the growth of European immigration.
          3. Founding of a Nation. Delaware made significant 
        contributions to the development of our constitutional 
        republic. Historical sites such as the John Dickinson 
        Plantation, the boyhood home of the ``Penman of the 
        Revolution'', proliferate in the coastal region.
          4. Industrial Development. Some of the earliest exploitation 
        of water power occurred in Delaware with the mill development 
        on the Brandywine River.
          5. Transportation. Water served as the main transportation 
        link, connecting Colonial Delaware with England, Europe and 
        other colonies. Water transportation along Delaware's coastline 
        retained its importance through the 20th century and displays a 
        variety of aids to navigation. These aids address both river 
        travel, with the range light navigation system, and ocean-going 
        travel, with the National Harbor of Refuge at Lewes and Fenwick 
        Island lighthouse at the coastal border with Maryland.
          6. Coastal Defense. Protection of this vital link was a 
        consistent concern from the Colonial Period through the 20th 
        century as evidenced by the superb collection of fortifications 
        spaced along the river and bay from Fort Delaware on Pea Patch 
        Island to Fort Miles near Lewes.
          7. The Last Stop to Freedom. Delaware has an extensive and 
        well documented history of Underground Railroad activity. The 
        coastline was an embarkation point for many freedom-seekers, in 
        small craft or large steamers, to cross to the free territory 
        of New Jersey and Pennsylvania. Many other escaping slaves 
        crossed the Christina River on their way to freedom at the site 
        of the current Tubman-Garret Park in downtown Wilmington.
          8. The Coastal Environment. Much of the beautiful and 
        ecologically important natural area along the coast is already 
        preserved as federal and state wildlife areas and state parks. 
        Delaware's coastal environment provides outstanding resource 
        based recreational opportunities such as crabbing, fishing, 
        swimming and boating.

                              THE ``PARK''

    These themes will be highlighted and showcased in a format unique 
to the National Park system. The Park will be structured much like a 
series of bicycle wheels, each with a hub and spokes. The hubs will be 
interpretive centers located strategically along the coast line. These 
hubs will provide the visitor with a comprehensive look at the themes 
most prevalent in the surrounding area. The spokes will be the 
connectors to the attractions and sites that make up the wheel.
    The ``gateway'' or ``headquarters'' hub will be located on the 7th 
Street Peninsula at the site of the Fort Christina monument. Within a 
short walking distance of the existing Fort Christina State Park is the 
Old Swedes Church, the oldest Episcopal Church in America in continuous 
use; the Kalmar Nyckel, a replica of the ship that carried early Swedes 
to our shores; Tubman-Garrett Park, located at a point in Wilmington 
where escaping slaves crossed the Christina River as part of their 
journey on the Underground Railroad, and other attractions. This area 
would be developed as a specific destination point for the Park.
    As a hub, it would also provide information, advice and directions 
about other sites in the Wilmington area that relate to the themes of 
the coastal region. These would include the Thomas Robinson House on 
Philadelphia Pike in Claymont, associated with the Revolutionary War, 
and the Brandywine Mills Historic District for the beginning of water-
powered milling history. It would include visitors' facilities, 
interpretive programs, the park headquarters and other amenities.
    A second hub would be located along the Delaware River in southern 
New Castle County. It would provide information on attractions in that 
area. Notable among those are the City of New Castle's renowned 
National Landmark historic district including the early statehood and 
Underground Railroad histories interpreted at the New Castle Court 
House Museum. Other examples include the George Read II House and 
Garden as well as related attractions in New Castle County such as Fort 
Delaware State Park on Pea Patch Island and Fort DuPont near Delaware 
City.
    A third would be located in Kent County, along the coast of the 
Delaware Bay. It would provide information on the existing preserved 
natural areas such as Bombay Hook and on the myriad other attractions 
in Kent County that are integral parts of the themes highlighted by the 
Park. These would include the John Dickinson Plantation, the Octagonal 
School Museum, the fishing villages of Leipsic, Little Creek and Bowers 
Beach, and Barrett's Chapel.
    A Sussex County hub would be located in the Lewes area and would 
provide information on the numerous historic sites and natural areas 
that have made Sussex County's coastal region so pivotal to Delaware. 
These would include the Zwaanendael Museum, the National Harbor of 
Refuge, Fort Miles (Cape Henlopen State Park), the Indian River 
Lifesaving Station, the Nanticoke Indian Museum, and the aids to 
navigation including the Fenwick Island Lighthouse, the Lightship 
Overfalls, the Harbor of Refuge Light, and the Breakwater Light.
    Together, these four interpretative hubs would provide the 
necessary historical context and direct visitors to the many existing 
attractions that help us understand and appreciate the entire breadth 
of experiences available along Delaware's Coastal region. They would 
disperse visitors to their destinations along existing roads, transit 
lines, bikeways and land and water trails. Through southern New Castle 
and Kent Counties, many visitors would traverse one of Delaware's most 
scenic roads, Route 9, which was recently proposed to be designated a 
scenic and historic highway.

                            THE PLAN FORWARD

    Together with Senator Joe Biden and Congressman Mike Castle, 
Senator Carper will be seeking authorization and funding from Congress 
for a formal study to be conducted by the National Park Service in 
cooperation with the State of Delaware, the coastal region communities 
and the general public. The study will more fully explore the concept 
outlined above and make recommendations to Congress. Upon receipt of 
the study, the Delegation would then seek legislation to authorize and 
fund the park itself.

    Senator Thomas. Thank you. Very impressive. There's 
certainly very good reason for it. I hope you don't plan a 
bicycle-type event. Bicycles won't stand alone, you know. They 
are too tired.
    [Laughter.]
    Senator Thomas. Senator Dodd, we're glad to have you, sir.

      STATEMENT OF HON. CHRISTOPHER J. DODD, U.S. SENATOR 
                        FROM CONNECTICUT

    Senator Dodd. This is tough competition around here. We 
could do what Vermont did, just declare the entire State a 
historic site. I think that's what they did to keep all the 
Wal-Marts out.
    [Laughter.]
    Senator Dodd. Small States have unique interests, Mr. 
Chairman, and having Delaware and Connecticut, we're just 
missing Rhode Island here, I suppose, to complete the trifecta 
of the small States. I constantly point out to my constituents 
that my State is smaller than Yellowstone National Park, Mr. 
Chairman and we now have a national park site, the Weir Farm, 
which Senator Lieberman championed a number of years ago, which 
I was strongly supportive of, and others. And so we finally 
ended up with a site that is of some significance. I think it's 
one of the smallest, if not the smallest, designations of a 
national park maybe in the country. It is difficult when you 
are a small State, there is no question about it obviously. We 
think because there is a growing recognition of the importance 
of these open spaces that we have, while they're shrinking all 
the time with the expansion of suburbs and exurbs, I guess they 
call them now, or words to that effect, but it's harder and 
harder to preserve some heritage for the coming generations.
    I am here, Mr. Chairman, once again, to make an appeal to 
this committee, which has been tremendously generous in the 
past to suggestions that have come from our State, particularly 
with the request to conduct feasibility studies in the Wild and 
Scenic River System Programs. The Lower Salmon River and the 
Salmon Brook River is the appeal I want to make today.
    I'm going to publicly thank a couple of individuals who are 
here, who you're going to hear from, Eric Hammerling, who's 
executive director of the Farmington River Water Shed 
Association, and Skip Allemen, who's director of the Salmon 
Brook Water Shed Association. You're going to hear from Eric in 
a little while and Skip is submitting some testimony and will 
be able to answer some specific questions about these 
proposals. But we're very lucky to have both individuals who 
have done so much to add already to protecting some of these 
very, very fragile and wonderful open space in our small State 
of Connecticut.
    Like my colleague from Delaware, these become harder and 
harder to do as time goes by. And so we try to do what we can 
here. I think they have some photos, but I don't know if we 
have them to put up to show. If we don't, we'll try to provide 
some for you. But Mr. Chairman, just very briefly again, to get 
the size of Connecticut, it's 110 miles plus 60 miles again, 
and I'm not--you've got a good concept when you talk about 
Yellowstone National Park. Then you get some sense of the size 
of our small State here.
    The Farmington River and the Salmon Brook flow between 10 
small towns in central Connecticut, a region of great 
historical and culture significance. These towns on the Salmon 
and the Farmington Rivers have built a strong community going 
back to the 18th Century, the early mills and so forth. They 
thrived and prospered as a result of the activities that these 
rivers provided. They were used extensively as a conduit for 
commerce which provided the jobs and the opportunities that 
created the great industries--the early industries of this 
country that emerged from these communities. Biologists have 
also stated that sections and stretches of these rivers have 
both regional and possibly global significance for plant 
communities, which makes the rivers one of the most thriving 
and diverse ecosystems in our State, and in certain areas 
unique not only to our State but to the country.
    Besides environmental and historical benefits, the Lower 
Farmington River provides excellent opportunity for recreation, 
including canoeing, kayaking, and the like. In fact it's some 
of the best kayaking in the region. They are class II through 
IV whitewater kayaking, 12 months a year. In fact we hosted the 
Olympic trials on these rivers, to give you some idea of the 
water flow that exists in these small rivers that run through 
our State.
    S. 435 was introduced by Senator Lieberman and I, and 
there's complimentary legislation completely supported by the 
entire delegation on the House side, the Governor, and the 
towns along the way. It's interesting, when I was at the river, 
I think it was last July, if I recall, and it was interesting 
that a couple of the local selectmen or mayors in the towns 
that were being affected by the Lower Farmington River 
expressed to me how they had actually been opposed to the 
earlier designation of the Upper Farmington River at the time 
it was moving through. Having the opportunity to watch over the 
last 10 or so years what's happened to these smaller 
communities in the Upper Farmington, today they were fully 
prepared to say that they were wrong in that opposition, and 
they totally support these efforts. So a lot of times you get 
local communities, developers, and others who get anxious about 
some of these decisions. I'm here to tell you, Mr. Chairman, we 
have the kind of unanimity from the locals, the private people, 
as well as the State and the delegation, in support of this 
study, and ultimately, hopefully, this designation. And so we 
have the kind of support I know the committee looks to.
    As many of my colleagues may remember, and I'm going back 
now 11 years, the Upper Farmington was so designated as I've 
just mentioned. And as a result it has seen notable 
improvement. Today representatives from the towns adjacent to 
the river meet monthly with the National Park Service. The 
State and local organizations do take action to preserve and to 
improve that stretch of the river. We need to build, as we 
suggested, on that success. The Lower Farmington is one of the 
most fished rivers in our State, but its water quality is 
declining again because of the encroaching population in a 
small State like ours.
    There is broad State and local support, as I mentioned, for 
this designation. I know the committee will hear from the Park 
Service about their views on this bill, and I wasn't here to 
hear the exact testimony, but I'm told that they substantively 
support this designation. There are obviously cost factors that 
you and the Park Service have to take into consideration, 
because we've been cutting back obviously in these areas. I 
would note that in the past the committee and others have not 
allowed that rationale to deny the study to go forward. We have 
to work, obviously, to come up with the resources, and they are 
strapped and I appreciate that, but I wouldn't want to see this 
set aside on that basis alone, given the history of moving 
forward with these feasibility studies while we determine 
whether or not down the road we can provide the additional 
resources.
    In a small State like ours, where you're trying to hold on 
to cultural, historical, and environmental benefits for people 
to enjoy, it can--quite candidly, I would love to be able to 
travel with my family from time to time, but given the cost of 
things, gasoline prices and the like, the ability to travel to 
your beautiful State--and I don't say that facetiously, it's an 
incredible State. I've been to Jackson Hole many times and I 
went on a camping trip to Grand Teton as a kid with my parents, 
and I still remember the beauty of it all. I've been through 
Yellowstone and enjoyed that immensely.
    Most of my constituents, Mr. Chairman, may never able to do 
that. They just don't have the resources to do it. But to spend 
a day or a weekend, a father to take his son or daughter and 
fish the Farmington, or the Salmon Brook, may be about as good 
as it gets. And I would like to see my daughters and their 
children, and the coming generations, be able to enjoy the back 
yard in Connecticut. And I would like them to be able to go to 
your State too, but if they can't do it, I don't want them to 
feel as though they can't, in their own neighborhood, find 
something they can enjoy.
    And so we would ask you to allow us to do this study--we're 
prepared to answer any questions--and to be supportive. Again, 
we understand the pressures you're under and others in the 
National Park Service to deal with these questions, but we 
think this is a worthy investment for America's future. I thank 
you.
    Senator Thomas. Thank you, sir, and I appreciate both of 
you being here. Let me just say that I understand the Tetons 
are unique and they're different, but all of our parks and all 
of our places are different. And the values that exist in your 
river at that place are just as important as the others, 
they're just different. So we want to recognize those. So we 
thank both of you for being here, and we will look forward to 
dealing with these bills.
    Senator, do you have any comments?
    Senator Talent. Just to say I always appreciate our two 
colleagues and I think I will pass, so we can get to the next 
panel.
    Senator Thomas. Okay. We would like very much to have our 
second panel please. Dr. Eric Hammerling, executive director of 
the Farmington River Watershed Association; Mr. Michael 
Roberts, manager of field services, Columbia Gas Transmission, 
Chester Springs, Pennsylvania; Mr. Timothy Slavin, director of 
the State Division of Historic and Cultural Affairs, Dover, 
Delaware; Ms. Beth Styler Barry, executive director of the 
Musconetcong Watershed Association in New Jersey; and John 
Fowler, executive director of the advisory council on Historic 
Preservation. We certainly want to thank you for being here. 
And we have a 5-minute time limit, if you can do that on your 
statements. If you have additional statements, we will put them 
in the record, if you would like.
    I'm going to try to work with Senator Talent. We're having 
some votes that are likely to come up, and we may have to come 
and go a little, but we will try to arrange it so we can go 
ahead without being too interrupting. So let's begin now, and 
why don't we start with Mr. Hammerling, if you please.

 STATEMENT OF ERIC HAMMERLING, EXECUTIVE DIRECTOR, FARMINGTON 
           RIVER WATERSHED ASSOCIATION, SIMSBURY, CT

    Mr. Hammerling. Thank you, Mr. Chairman. I've got to say 
it's an incredible pleasure to be here. I would like to thank 
Senator Dodd for his kind remarks, as well as his staff person, 
Sheila Duffy, who's done an amazing job in helping to work with 
us on this bill. I'm here of course to talk in favor of S. 435, 
the Lower Farmington River and Salmon Brook Wild and Scenic 
Study Act of 2005. It's quite a mouthful, but it's not quite 
Musconetcong. Let me state for the record that I would not 
oppose the technical amendment proposed by the National Park 
Service, and I appreciate the support of this legislation. That 
being said, I hope you will encourage the Park Service to work 
with congressional leaders from Connecticut, Delaware, Florida, 
Massachusetts, New Hampshire, New Jersey and Pennsylvania--
those are the States that are represented with partnership Wild 
and Scenic Rivers--to ensure that the Park Service has 
sufficient funding for both its partnership Wild and Scenic 
Rivers Study Program, as well as those that have already been 
or may soon be designated. I will not attempt to speed read my 
entire testimony that has been submitted for the record, but I 
do want to emphasize a couple of points that are in there.
    No. 1, and Senator Dodd mentioned this, Wild and Scenic in 
the Farmington River Watershed is not a new concept. In fact, I 
hope you have the maps of the lower scenic feasibility study 
area and of the watershed. But in those I can point out that 
two of the towns that are being considered for the study are 
already Wild and Scenic towns as a part of the Upper Farmington 
River that was designated in 1994. I also want to mention that 
the partnership Wild and Scenic River model fits what we call 
home rule in New England very well. In fact, the partnership 
model supports local conservation planning, resource 
stewardship, collaborative local, State and Federal resource 
management, and local interests in preserving the special 
character of our region's cultural, natural and recreational 
assets. And I hope you will note that local is in every part of 
the partnership Wild and Scenic River Program, or else it would 
not fly in New England. And it's been flying quite well for 11 
years on the Upper Farmington River.
    Last, I will just mention, of course, we think that there 
are considerable cultural, natural and recreational resources 
in the Lower Farmington River and Salmon Brook, which make it a 
very good candidate for consideration for Wild and Scenic. 
There are a couple of things--and I put a lot of things in my 
testimony that has been submitted, but there are a couple of 
things I left out that I just want to mention. Windsor, which 
is one of the 10 towns, and it's at the bottom of the 
Farmington River where it meets the Connecticut River, is known 
as Connecticut's first town. It was incorporated first. We 
heard about Delaware being the first State; this was 
Connecticut's first town, and it hosts tremendous historical 
and archeological resources. In fact, it's very interesting as 
a Native America historical site. There are five different 
types of stone tools that were found in the Windsor area, which 
really showed that even for the last 10,000 years it's been a 
place of commerce.
    I also forgot to mention that Simsbury, which is also one 
of the towns that will be considered, has the Gifford Pinchot 
sycamore tree which is the largest tree in Connecticut. In 
fact, that tree happens to have benefited our organization 
because when a bow of the tree fell this last year, we were 
contacted by the local recreation department and we turned it 
into a guitar, an Ovation Elite guitar, made from the largest 
tree in Connecticut. It's been mentioned that the Lower 
Farmington River is the greatest fresh water mussel diversity 
in the State, from a natural resource perspective, and there's 
kayaking that has hosted two Olympic qualifying trials, and on, 
and on, and on. At the same time, it has these amazing 
resources.
    I also want to emphasize that we're starting to see some 
declines in the quality of the Farmington River. In 2002 there 
was a 20-mile section of the Lower Farmington that was added to 
the State's impaired water list for elevated bacterial levels. 
This was the first time ever that a section of the Farmington 
River was added to the impaired waters lists.
    I will just conclude by saying that even though we have 
tremendous Wild and Scenic characteristics, we are seeing 
evidence that these can be lost if we don't work together to 
protect them. And with that, I will conclude my testimony and 
welcome any question you may have.
    [The prepared statement of Mr. Hammerling follows:]

      Prepared Statement of Eric Hammerling, Executive Director, 
            Farmington River Watershed Association, on S.435

    Mr. Chairman and Members of the Energy Committee, my name is Eric 
Hammerling and I am the Executive Director of the Farmington River 
Watershed Association (FRWA), a 501(c)(3) non-profit organization 
founded in 1953 with the ongoing mission to protect the Farmington 
River Watershed and its amazing natural resources. I am extremely 
pleased to be here to testify on behalf of S. 435, ``The Lower 
Farmington River and Salmon Brook Wild & Scenic River Study Act of 
2005.'' At the onset, I'd like to recognize Skip Alleman, Director of 
the Salmon Brook Watershed Association, who made the trip down from 
Connecticut along with me and who represents a valued partner in 
conserving natural resources in our shared watershed. The Salmon Brook 
Watershed Association, Farmington River Coordinating Committee, 
Farmington Valley Archaeology Project, and American Rivers have all 
assembled testimony supporting this Act, and at this time, Mr. 
Chairman, I'd like to submit their letters of support to be 
incorporated into the Record of this hearing. Thank you.
    This legislation would initiate a 3-year study of the Lower 
Farmington River and Salmon Brook to ascertain whether they meet the 
criteria for being potentially designated as Wild & Scenic. This bill 
is a critical step that will inform our ongoing efforts to conserve the 
most outstanding cultural, natural, and recreational resources of our 
region, and we believe there is a substantial benefit of this Study 
even if the final result of the Study is not the designation of the 
Lower Farmington or Salmon Brook as Wild & Scenic.
    That being said, we are confident that these two waterbodies 
already merit strong consideration for gaining Wild & Scenic status 
because of the outstanding cultural, natural, and recreational 
resources that we have identified in preparation for this hearing. A 
few examples of this follow and are included in greater detail in the 
attached testimonies from other supporters:

  <bullet> Botanist William Moorhead III has identified several native, 
        rare plants in the floodplain of the Farmington River including 
        99% of the Starry campion found in New England, the only known 
        population of Dwarf bulrush in a river ecosystem, the largest 
        known population of Davis' sedge in New England, and the only 
        known population of Purple giant hyssop in Connecticut.
  <bullet> Mussel biologist Ethan Nedeau with BioDrawversity in the 
        summer of 2005, identified the Lower Farmington River as having 
        the largest cluster of the federally endangered dwarf wedge 
        mussel in Connecticut, as well as hosting the greatest 
        diversity of freshwater mussels (9 species) found in any River 
        in southern New England.
  <bullet> The Farmington River has been identified by the CT DEP as 
        one of the most important rivers in the Connecticut River 
        system for the restoration of Atlantic Salmon. To these 
        migrating fish heading upstream in the Connecticut River from 
        Long Island Sound, the Farmington River is the largest River in 
        Connecticut they migrate into. Salmon Brook is the most 
        important tributary to the Farmington for Atlantic salmon 
        restoration due to the few obstructions to their migration.
  <bullet> There are significant Tunxis and River Tribe native American 
        archaeological sites throughout the floodplain. Spear and arrow 
        points abound at Alsop Meadows in Avon, and Simsbury has 
        identified its entire floodplain as a sensitive archaeological 
        area. The town of Windsor, located at the confluence of the 
        Farmington and Connecticut Rivers, is Connecticut's first town 
        and it boasts a rich river history. Remnants of the historic 
        folly known as the Farmington River Canal still exist in 
        several areas throughout the floodplain of the Farmington and 
        Salmon Brook.
  <bullet> Churning through Bloomfield, East Granby, and Simsbury, the 
        combined waters of the Farmington and Salmon Brook course 
        through Tariffville Gorge to provide Class II-IV whitewater 
        kayaking 12 months a year. The Gorge is one of the only places 
        to consistently paddle in whitewater during the summer in 
        Southern New England. The Gorge has been the site for many 
        whitewater canoe and kayaking competitions, and twice has 
        included the U.S. Olympic Team whitewater slalom trials. Just 
        upstream, the flat water section of the Farmington provides a 
        training ground for local crew teams and for thousands of 
        canoeists and kayakers every year sustaining local water-
        focused businesses like Huck Finn Adventures.
  <bullet> The Farmington Valley Greenway and a spur route, the 
        Farmington River Trail, are part of the Farmington Canal 
        Heritage Trail covering 60 miles along the abandoned rail 
        corridors from the Massachusetts border to New Haven. In the 
        Farmington Valley, 25 miles of these hiking, biking, and dog-
        walking trails have the Farmington River as the central 
        attraction.
  <bullet> The East and West branches of Salmon Brook are both in the 
        top 12 in the State of Connecticut for the diversity of aquatic 
        insects that they host. Aquatic insect diversity is a good 
        indicator of high water quality, and this is further shown by 
        the presence of native brook trout and slimy sculpin--two fish 
        species that are only found in areas with high water quality 
        (source: Rapid Bioassessment in Wadeable Streams and Rivers by 
        Volunteer Monitors--2004 Summary Report, CT DEP Bureau of Water 
        Management).

    Not only do we believe the requisite outstanding cultural, natural, 
and historic resources exist, but also we know that our communities are 
ready and eager to participate in the Partnership Wild & Scenic River 
model because they have witnessed it working for 11 years along a 14-
mile stretch of the Upper Farmington that was designated as Wild & 
Scenic in 1994. Management activities along this 14-mile stretch are 
overseen by the Farmington River Coordinating Committee--a combination 
of representatives from 5 river-adjacent towns, the National Park 
Service, a large local water utility (the Metropolitan District 
Commission which provides water from the Farmington Watershed to over 
400,000 people in the Greater Hartford area), the Connecticut 
Department of Environmental Protection, FRWA, and the Farmington River 
Anglers Association. The FRCC has demonstrated for 11 years that 
collaborative river management works.
    The management philosophy that underlies the Partnership Wild & 
Scenic River model (as included in the Upper Farmington River 
Management Plan) is worth reiterating here:

      1. Resource conservation should be fully integrated with 
traditional patterns of use, ownership, and jurisdiction;
      2. River management should be accomplished through cooperation 
amongst all public and private organizations with an interest in the 
river;
      3. Long-term resource protection should rely on existing programs 
and authorities rather than on new layers of bureaucracy; and
      4. Future management should be based on a cooperatively developed 
plan which establishes resource protection standards and identifies key 
actions.

    This management philosophy is built on the assumption that, for the 
most part, existing river protection mechanisms are adequate to protect 
river resources. If a resource value has been protected by existing 
management, and if existing management seems adequate to address issues 
that can reasonably be expected to appear in the future, then the 
existing mechanism should be left alone. If the existing mechanisms 
could be improved or made more efficient by better coordination or 
enforcement, then they should be pursued. New or stricter regulations, 
or other actions, should only be undertaken when needed, not used as a 
primary management tool.
    The Study Committee is firm in its resolve that this management 
plan must not preempt existing rights or management responsibilities. 
Rather, the plan should create a common vision for the future and an 
environment in which those concerned with the river can focus their 
collective energies on making this vision a reality.''
    As if it were not enough to appreciate ones local waterbodies and 
witness a model of river conservation that works, there is also strong 
evidence that Wild & Scenic protection provides communities with direct 
economic benefits. A study on the Upper Farmington River conducted by 
the Economics Department of North Carolina State University and funded 
by the National Park Service and American Rivers, documented a total 
annual economic benefit of $3.63 million to the 5 towns along the River 
and a $9.5 million benefit to recreational users. Also, land values 
within the river corridor have increased by an estimated $3.76 per 
square foot (over $163,785/acre) beyond increases in other town lands 
due to Wild & Scenic protection and recognition.
    At the same time that the Lower Farmington River and Salmon Brook 
are both unique, cherished, and valuable resources, we are concerned 
that we are on the verge of losing the bounties that these waterbodies 
provide. In 2002 a 19.6 mile section of the Lower Farmington River 
(stretching from Farmington to Windsor) was included in the state's 
303(d) ``impaired waters'' list for elevated bacteria levels for the 
first time ever. The 303(d) listing will not affect the ability of the 
River to be considered as Wild & Scenic; however, this serves as a 
reminder that we must take action now to conserve these special 
resources to stem further declines in their beauty and value to the 
region. The Feasibility Study process that we are asking the Congress 
to authorize would enable town representatives, the National Park 
Service, FRWA, the State of Connecticut (DEP) and other interested 
parties to assemble a River Management Plan to address resource 
management issues impacting the River in the short- and long-term. This 
management plan process--even if the River isn't recommended for Wild 
and Scenic designation--can be a powerful way to address this bacteria 
problem with all of the affected towns working collaboratively to find 
a mutually beneficial solution.
    We already know that the communities of the Farmington Valley in 
Connecticut are highly interested in finding collaborative ways to 
protect natural resources. Earlier this year, the book ``Nature 
Friendly Communities: Habitat Protection and Land Use Planning'' (C. 
Duerksen & C. Snyder, Island Press, 2005) tabbed the Farmington Valley 
as one of the 19 most nature friendly communities in the United States 
due to its efforts with FRWA and others to protect species diversity at 
the local level. Towns like Farmington, Granby, and Simsbury have been 
particularly strong in going above and beyond to foster interest and 
conservation of local natural resources. The process initiated by S. 
435 would complement the local interest and involvement.
    Before concluding my testimony, I'd like to take a moment to thank 
Senators Dodd and Lieberman, who not only are proponents of this bill, 
but were original co-sponsors of the Wild & Scenic designation bill 
that passed 11 years ago. Also, in the House, representatives Nancy 
Johnson and John Larson have been incredibly supportive of this bill 
moving forward, but the decision now rests with your Committee.
    Quite simply, approval of S. 435 will help our region to leverage 
the knowledge and collaborative will necessary to protect and restore 
two of its crown jewels--the Lower Farmington River and Salmon Brook. 
We thank you for your consideration of this bill.

    Senator Thomas. Thank you very much.
    Ms. Barry.

   STATEMENT OF BETH ANNE STYLER BARRY, EXECUTIVE DIRECTOR, 
               MUSCONETCONG WATERSHED ASSOCIATION

    Ms. Barry. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify today on S. 1096. I'm Beth 
Styler Barry, executive director of the Musconetcong Watershed 
Association. I would like to thank Senators Corzine and 
Lautenberg for their leadership and crucial support in this 
effort. I would also ask that my entire written statement be 
entered into the record.
    Passage of the Musconetcong Wild and Scenic Rivers Act by 
this committee is critical to the future of the protection of 
one of New Jersey's great rivers. This unique river is the only 
river wholly contained in New Jersey's highlands region, and is 
the largest New Jersey tributary to the Delaware River.
    Without the support offered by this designation the 
municipalities along the river lack financial and other 
resources needed to adequately protect this exceptional natural 
resource. Designating the eligible segments of the river will 
promote preservation of farmland and open space within the 
river corridor and the watershed. It will protect recharge 
areas and aquifers that supply drinking water to citizens of 
Hunterdon, Warren, Sussex, and Morris Counties and beyond, and 
encourage recreational use that is compatible with the 
preservation of natural and cultural qualities of the river 
corridor, while respecting private property. It will also 
promote ecotourism, in the form of fishing, boating, hiking, 
and bird watching, et cetera, that will translate directly into 
economic benefit for the region. It will also help to preserve, 
restore or enhance the outstanding natural resources in the 
river corridor and the watershed, including forests, 
floodplains, headwaters, and wetlands. In short, designation 
supports uses that are compatible with the river management 
plan and that preserve the existing of the Musconetcong River 
Valley.
    Beginning in 1991, this 14-year-long effort to earn 
designation has included citizens from 26 municipalities and 4 
counties. Municipal governments, county and State officials, 
the National Park Service, the Musconetcong Watershed 
Association, local industry, the Heritage Conservancy, the 
Highlands Coalition, Trout Unlimited and riverfront property 
owners. Several alternatives were studied, and the Wild and 
Scenic designation was chosen as the best mechanism to enhance 
and support protection for the river while maintaining local 
control.
    In 1999, the eligibility and classification report was 
complete. The study found that certain segments were indeed 
eligible for inclusion in the Wild and Scenic River System. The 
river management plan created as a part of the Wild and Scenic 
study process encourages cooperation between all levels of 
government, individual land owners and non-governmental 
organizations and recognizes that local municipalities play a 
key role in implementing the recommended management actions. 
The river management plan will help maintain existing water 
quality in the Musconetcong River and it's tributaries and 
improve water quality where possible.
    The Musconetcong is one of New Jersey's great rivers. The 
Musconetcong River Valley is a primary source of drinking 
water, provides critical wildlife habitat and abundant 
recreational opportunities. Passage of this bill will protect 
the remarkable diversity of farms, historic villages and 
outstanding natural areas.
    S. 1096 recognizes the exceptional value of the 
Musconetcong River and the importance of its protection under 
the National Wild and Scenic Rivers Act. I urge your favorable 
consideration of this bill and would be pleased to answer any 
questions that you may have. Thank you.
    [The prepared statement of Ms. Barry follows:]

   Prepared Statement of Beth Anne Styler Barry, Executive Director, 
                   Musconetcong Watershed Association

    The Musconetcong Watershed Association wishes to express their 
support for this bipartisan legislation that will designate segments of 
the Musconetcong River as a federal Wild and Scenic River. Passage of 
the Musconetcong Wild and Scenic Rivers Act by this committee is 
critical to the future protection of one of New Jersey's great rivers.
    Specifically, this distinguished recognition of the river will:

  <bullet> Help maintain existing water quality in the Musconetcong 
        River and its tributaries, as well as improve water quality.
  <bullet> Protect the recharge area and aquifers that supply drinking 
        water to residents of Hunterdon, Warren, Sussex and Morris 
        counties and beyond.
  <bullet> Help to promote preservation of farmland and open space 
        within the river corridor and the watershed.
  <bullet> Encourage recreational use that is compatible with the 
        preservation of natural and cultural qualities of the river 
        corridor while respecting private property.
  <bullet> Promote eco-tourism in the form of fishing, boating, hiking 
        and bird watching etc. that will translate directly into an 
        economic benefit for the region.
  <bullet> Preserve, restore and enhance the outstanding natural 
        resources in the river corridor and the watershed, including 
        rare and endangered species, forests, floodplains, headwaters 
        and wetlands.
  <bullet> Support uses that are compatible with the River Management 
        Plan and that preserve the existing character of the 
        Musconetcong River Valley.

                         GEOPHYSICAL PROPERTIES

    The Musconetcong River drains a 157.6 square mile watershed area in 
northern New Jersey, and as a major tributary to the Delaware River, is 
part of the 12,755 square mile Delaware River watershed. For its entire 
length the Musconetcong River is a boundary water, first dividing 
Morris and Sussex counties, then Hunterdon and Warren counties. All or 
portions of 26 municipalities lie within the natural boundaries of the 
Musconetcong watershed. Fourteen municipalities fall within the river 
segments eligible for National Wild and Scenic Rivers designation.

               CITIZENS UNITE IN RIVER PROTECTION EFFORT

    The impetus for the Musconetcong National Wild and Scenic Rivers 
study can be traced back to 1991 when petitions were circulated calling 
for the protection of the Musconetcong River under both the National 
Wild and Scenic Rivers System and New Jersey Wild and Scenic Rivers 
program. In 1992 Congress passed legislation authorizing the National 
Park Service to study the eligibility and potential suitability of the 
Lower Delaware River for addition to the National Wild and Scenic 
Rivers System.
    The Musconetcong Watershed Association (MWA) was formed in 1992, 
and in 1993 the MWA and the National Park Service (NPS) organized two 
Roundtable Meetings to discuss the problems, amenities and 
opportunities associated with the Musconetcong River. In 1995, the New 
Jersey Department of Environmental Protection (NJDEP) Office of Natural 
Lands Management recommended to the NPS that the Musconetcong River be 
included in the Nationwide Rivers Inventory of ``candidate'' rivers 
that are considered to have the appropriate characteristics for wild 
and scenic designation. Two years later, 18 of the 19 municipalities 
along the river voted to request the NPS to study the Musconetcong 
River to determine its eligibility and suitability for inclusion in the 
National System. An initial meeting was held in July 1997 and included 
representatives from eighteen river corridor municipal governments, 
National Park Service, Musconetcong Watershed Association, county and 
state officials, major industries, Heritage Conservancy, Highlands 
Coalition, and Trout Unlimited, as well as interested citizens and 
river front property owners.

                             STUDY APPROACH

    A Musconetcong Advisory Committee, consisting of municipal 
representatives was formed to work with the NPS and the Musconetcong 
Watershed Association in completing the National Wild and Scenic study. 
It was agreed by all parties that the Musconetcong Advisory Committee 
and local municipalities would have the final say as to whether the 
Musconetcong River is recommended for designation. Subcommittees were 
formed to address public involvement needs and to conduct the resource 
assessment for the Resource Assessment, Eligibility & Classification 
Report. The study area included the main stem of the river and the 
river corridor from the outlet at Lake Musconetcong to the Delaware 
River, a distance of approximately 42 miles.

                 ELIGIBILITY AND CLASSIFICATION REPORT

    The Eligibility & Classification Report, completed in August 1999, 
recommended that three segments of the river, representing 28.5 miles 
of river, were eligible for inclusion in the National Wild and Scenic 
Rivers System based on flow characteristics and natural and cultural 
resources. The committee then conducted an analysis of existing 
resource protection in the river corridor and developed draft 
management goals, objectives and key actions. The advisory committee 
served as the coordinating body for the study, guiding all major study 
activities. In order to facilitate the compilation of information about 
the river's resources and suitability, the NPS established cooperative 
agreements with the Musconetcong Watershed.
    Segment A: Saxton Falls to the Rt. 46 Bridge (3.5 miles) 
Classification: Scenic
    Segment B: Kings Highway Bridge to the Railroad tunnels at 
Musconetcong Gorge (20.7 miles) Classification: Recreational

                    OUTSTANDINGLY REMARKABLE VALUES

    The study documented an outstanding diversity of farms, historic 
villages and outstanding natural areas. The Musconetcong River Valley 
is a primary source of drinking water, clean air, critical wildlife 
habitat and abundant recreational activities. Its protection is vital 
to the environmental, social, and economic health of the country's most 
densely populated region.

                              RECREATIONAL

    The Musconetcong River Valley features a diversity of recreational 
opportunities that are popular enough to attract visitors from 
throughout the region. The river corridor provides a high-quality 
environment for a wide variety of recreational activities which are 
important to the local economy. State, county and local parklands 
within the river corridor provide significant opportunities for hiking, 
fishing, canoeing, camping nature study and other outdoor activities. 
The Musconetcong River and its tributaries are regionally important 
trout fishing streams. Approximately 20 of the tributary streams 
support naturally reproducing trout populations. The river is also 
eligible for designation to the State Trails System as a Waterways 
Trail. The river-related recreational resources are considered to be 
regionally exemplary.

                        HISTORIC AND PREHISTORIC

    The Musconetcong River Valley contains many river-related bridges, 
mills and historic districts that are listed on the National Register 
of Historic Places. One river-related resource, the Morris Canal 
Historic District, is a National Historic Landmark and was judged to be 
nationally exemplary. The Plenge Paleo-Indian Archaeological site 
within the river corridor is eligible for National Landmark designation 
study. River-related historic resources were judged overall to be 
regionally exemplary.

                                 SCENIC

    Several locations in the river corridor offer outstanding views of 
the agricultural river valley, Highlands Ridges, Kittatinny Mountain 
and Delaware Water Gap. These views of landforms and vegetation 
throughout the seasons are only minimally interrupted by cultural 
intrusions. River-related scenery was judged to be regionally 
exemplary.

                     WILDLIFE AND CRITICAL HABITAT

    Regionally important populations of wildlife and critical habitat 
for state listed threatened, endangered or rare species are present 
within the river corridor. The Musconetcong River watershed lies 
entirely within the New Jersey Highlands Region, a landscape of 
national importance as determined by the U.S. Forest Service and within 
the Atlantic Flyway, one of four major migratory bird routes in North 
America.

                      SEGMENT-BY-SEGMENT ANALYSIS

    The following is a categorical description of outstanding resources 
found within each study segment.
Segment A: Saxton Falls to Rt. 46 Bridge
    Recreational: Allamuchy/Stephens State Park
    Eligible State Waterway Trail
    Historic: Morris Canal National Historic Landmark
    Scenic: Largely primitive, undeveloped river corridor through state 
and municipal parklands
    Wildlife: Barred Owl: State threatened
    Brook Floater: Critically imperiled in NJ
Segment B: Kings Highway Bridge to the railroad tunnels at Musconetcong 
        Gorge
    Recreational: Musconetcong River Reservation
    Eligible State Waterway Trail
    Numerous state-owned access points for fishing, boating and hiking
    Historic: Beattystown Historic District: National Register
    Miller Farmstead and stone bridge: National Register
    New Hampton Pony Pratt Truss Bridge: National Register
    New Hampton Historic District: National Register
    Imlaydale Historic District: National Register
    Asbury Village Historic District: National Register
    North Bloomsbury Historic District: National Register
    Scenic: Outstanding views of agricultural river valley, Highland 
Ridges, Kittatinny Mountain and Delaware Water Gap
    Outstanding views of agricultural river valley from Highway 639, 
Franklin Township
    Wildlife: Wood Turtle: State threatened
    Fleshy Hawthorn: State endangered

                  HISTORIC AND ARCHEOLOGICAL RESOURCES

    Human habitation in the Musconetcong valley has been traced back to 
as early as 12,000 years ago when Paleo-Indians occupied the region 
during the final retreat of the Wisconsin glacier. Evidence of their 
presence in the valley was documented at the Plenge Site, which is 
located along the lower Musconetcong River in Warren County. The Plenge 
Site was the first of only two major Paleo-Indian archaeological site 
excavations in New Jersey, and it is considered to be one of the most 
important in the northeastern United States.
    Outstanding river-related historic features--many of which are 
listed on the New Jersey and National Registers of Historic Places--can 
be found in Stanhope, Waterloo Village, Asbury, Finesville and several 
other Musconetcong River communities. These features contribute greatly 
to the scenic character and overall quality of life in the Musconetcong 
valley, and are important to the local economy as key components of 
regional tourism.
    By the time European settlement came to the Musconetcong valley 
during the early 18th century, the Lenape Indians were already in a 
state of decline, and the several thousand-year-old aboriginal 
occupation was coming to an end. While the Lenape Indians burned off 
significant areas of forest to plant crops and attract game, their only 
lasting imprint on the landscape were the major trails that European 
colonists eventually adapted to roads. One of these was the Malayelick 
Path which ran from the head of the tidal Delaware River to the 
Musconetcong River ``gap'' between Musconetcong and Schooleys 
Mountains. The path was the forerunner of State Highway 31, which 
begins in Trenton and crosses the Musconetcong River at Hampton 
Borough. Portions of State Highway 206 are part of the Minisink Trail, 
which linked the New Jersey coast with Minisink Island in the Upper 
Delaware River.
    Subsistence agriculture took root in the lower Musconetcong valley 
at the beginning of the 18th century. The fertile limestone valley was 
rapidly cleared for croplands, and subsistence agriculture gradually 
evolved into commercial grain and dairy farming. Villages sprang up 
around the many gristmills and iron forges built along the Musconetcong 
River from Finesville to Hackettstown. The charcoal iron industry was 
also established during the early 18th century on the lower 
Musconetcong River, and was supported by abundant supplies of ore from 
the surrounding ridges. The iron industry faced a precipitous decline 
when wood supplies were depleted by the early 19th century. However, 
the industry was rescued when one of early America's truly amazing 
engineering feats--the Morris Canal--was built to carry coal from the 
Pennsylvania coalfields to fuel the iron furnaces. The Morris Canal was 
a world-famous engineering marvel that required abundant supplies of 
water. Lake Hopatcong, which was originally a small natural glacial 
lake, was dammed to supply water to the entire canal system, but it was 
found to be an inadequate source. To augment the flow of water to the 
canal, several other dams were built on the Musconetcong River and 
Lubbers Run, its largest tributary.

                         RIVER MANAGEMENT PLAN

    Next, an analysis of land ownership, land use regulation and 
physical barriers to development in the river corridor was completed to 
determine the effectiveness of existing mechanisms in management of the 
river and its outstandingly remarkable values, and to identify gaps 
which could be addressed by the implementation of a comprehensive 
management plan. Development of a river management plan is a 
requirement of the National Wild and Scenic Rivers study and becomes 
the basis for protection of the river now and into the future.
    This management plan was the result of cooperative efforts of the 
Musconetcong Advisory Committee, Musconetcong Watershed Association, 
Heritage Conservancy, the National Park Service, and a variety of 
local, county and state representatives. The management plan sets forth 
five major goals and recommends actions to maintain and improve the 
Musconetcong River corridor, its tributaries and watershed, and 
surrounding natural, cultural and recreational resources.
    Goal 1. Encourage recreational use that is compatible with the 
preservation of natural and cultural qualities of the river corridor 
while respecting private property.
    Goal 2. Preserve and protect the character of archaeological sites 
and historic structures, districts, sites, and landscapes in the river 
corridor.
    Goal 3. Preserve farmland and open space within the river corridor 
and the watershed.
    Goal 4. Preserve, protect, restore and enhance the outstanding 
natural resources in the river corridor and the watershed, including 
rare and endangered species, forests, steep slopes, floodplains, 
headwaters and wetlands.
    Goal 5. Maintain existing water quality in the Musconetcong River 
and its tributaries and improve where possible.
    Successful implementation of the management plan will require 
cooperation between all levels of government, individual landowners and 
non-governmental organization. The plan recognizes that local 
municipalities play a key role in implementing the recommended 
management actions.

                               CONCLUSION

    The Musconetcong is one of New Jersey's great rivers. The 
Musconetcong River Valley is a primary source of drinking water, 
critical wildlife habitat and abundant recreational activities. Passage 
of this bill will protect an outstanding diversity of farms, historic 
villages and outstanding natural areas. S. 1096 recognizes the 
exceptional value of the Musconetcong River and the importance of its 
protection under the National Wild and Scenic Rivers Act. I urge your 
favorable consideration of this bill.

    Senator Thomas. Thank you very much.
    Mr. Roberts.

  STATEMENT OF MICHAEL W. ROBERTS, OPERATIONS MANAGER FOR THE 
 STATE OF PENNSYLVANIA, COLUMBIA GAS TRANSMISSIONS CORPORATION

    Mr. Roberts. Thank you, Mr. Chairman. My name is Mike 
Roberts and I am operations manager in the State of 
Pennsylvania for Columbia Gas Transmission Corporation. I have 
been with Columbia's pipeline operations for 24 years, and for 
16 of those years I have been located in Pennsylvania.
    I am here today to testify on behalf of S. 1310, a bill to 
authorize the Secretary of the Interior to allow Columbia Gas 
Transmission Corporation to increase the diameter of a natural 
gas pipeline located in the Delaware Water Gap National 
Recreation Area.
    Columbia Gas Transmission, a subsidiary of NiSource 
Incorporated, is one of the largest interstate natural gas 
pipelines operating in the United States today. Combined with 
the network of a sister pipeline company, our system includes 
nearly 17,000 miles of underground pipelines, delivering more 
than one trillion cubic feet of natural gas annually to markets 
in 10 Eastern States. We also operate one of the largest 
natural gas storage systems in the country.
    One of our pipelines, which we refer to as Line 1278, was 
installed in 1948 in the then-rural northeast region of 
Pennsylvania. This line, which runs north-south along the 
State's eastern border, became and remains an important part of 
our energy delivery system to key eastern markets.
    Following an internal inspection of this pipeline, the U.S. 
Department of Transportation directed Columbia Transmission in 
2002 and 2003 to take actions going forward in its operation of 
Line 1278, including additional testing, corrosion prevention 
and replacement of portions of the pipeline. To further comply 
with this directive, Columbia filed an application with the 
FERC in December 2003 to replace about 43 miles of the line, 
including a 3\1/2\-mile section that now lies within the 
Delaware Water Gap Natural Recreation Area. This park was 
created by the National Park Service in 1965 through the 
acquisition of several parcels of property in the area.
    The issue addressed by the legislation before you today 
relates to the right-of-way agreements now held by the Park 
Service. Columbia's existing line affects 14 of these tracts 
under the terms of the agreements negotiated with private 
property owners prior to the creation of the park. Of these, 12 
agreements include language that allows Columbia to increase 
the diameter of its pipeline. However, two of the agreements, 
representing about 900 linear feet, do not include such 
authorization.
    Under current law, the Secretary of the Interior lacks 
authorization to enter into modification agreements for the 
existing rights-of-way to allow an increase in the diameter of 
this line, as proposed and approved by the FERC, from 14 to 20 
inches in diameter. To complete our project, we collaborated 
with National Park Service staff to craft language that was 
written into S. 1310, introduced jointly by Senators Specter 
and Santorum of Pennsylvania.
    Timely action on this legislation will result in several 
beneficial outcomes.
    First, the replacement will standardize the size of Line 
1278 at 20 inches in diameter throughout the area, which will 
in turn allow more efficient use of advanced internal 
inspection devices to assure safety and reliability of the 
pipeline and facilitate compliance with the directives of the 
DOT Pipeline Integrity Management Rule. Consistency in size is 
important for these devices, which transverse the inside of the 
pipe and have the advantage of allowing us to test our 
pipelines with the least disruption to our customers, to the 
communities adjacent to the line, and to the surrounding 
environment, while providing the most detailed information 
regarding the pipeline's operations and current condition. 
Second, it will allow Columbia to complete the upgrade of a 57-
year-old pipeline within the timeframe approved by the DOT. 
Columbia is currently operating the pipeline at a reduced 
pressure as part of our agreement with DOT and relying on 
available capacity in other pipelines to meet market 
obligations during periods of high demand. With the new, 
upgraded line in place, Columbia will be less dependent on this 
practice. The increase in diameter from 14 inches to 20 inches 
will also increase the overall delivery reliability in the 
region.
    Third, the replacement offers the added benefit of less 
intrusion in the future for maintenance and repair work in the 
Delaware Water Gap. Through use of today's pipeline coatings 
and other corrosion protection, regular inspections and 
participation in the Pennsylvania One Call Program, we can 
anticipate a useful life for the new pipeline that greatly 
exceeds the nearly 60 years of service provided by the existing 
pipeline.
    A critical point to note about this project is the 
replacement with the slightly larger diameter pipe will require 
no additional construction impacts and will not change the 
existing permanent right-of-way that currently exists with the 
Delaware Water Gap. The construction footprint is the same for 
the proposed 20-inch diameter pipe as it is for the existing 
14-inch, which again we are under DOT mandate to replace.
    Columbia has been working closely with the National Park 
Service during the permitting process, including NEPA review 
and the issuance of a special use permit from the Park. Park 
Service staff have been very helpful and cooperative in working 
toward a mutually agreeable solution in this matter.
    In this regard, I want to bring to your attention a 
typographical error in the bill. On page 2, line 9, the bill 
refers to right-of-way number 16414. The number should be 
16413. The Park Service is aware of this error and supports us 
in our request to change the right-of-way number during 
committee consideration of the legislation.
    Mr. Chairman and members of the committee, I ask that my 
prepared statement be submitted for the record. Thank you for 
your time and attention, and I will be happy to address any 
questions you may have.
    [The prepared statement of Mr. Roberts follows:]

     Prepared Statement of Michael W. Roberts, Operations Manager, 
           Columbia Gas Transmission Corporation, on S. 1310

    Good afternoon Chairman Thomas and Members of the Subcommittee. My 
name is Mike Roberts and I am Operations Manager in the State of 
Pennsylvania for Columbia Gas Transmission Corporation. I have been 
with Columbia's pipeline operations for 24 years, and for 16 of those 
years I have been located in Pennsylvania.
    I am here today to testify on behalf of S. 1310, a bill to 
authorize the Secretary of the Interior to allow Columbia Gas 
Transmission Corporation to increase the diameter of a natural gas 
pipeline located in the Delaware Water Gap National Recreation Area.
    Columbia Gas Transmission is one of the largest interstate natural 
gas pipelines operating in the United States today. Combined with the 
network of a sister pipeline company, our system includes nearly 17,000 
miles of underground pipelines, delivering more than one trillion cubic 
feet of natural gas annually to markets in 10 eastern states. We also 
operate one of the largest natural gas storage systems in the country.
    The company, a subsidiary of NiSource, Inc., and its predecessors 
have constructed and operated natural gas pipelines for more than 70 
years. As part of our operating plan, each year we invest a significant 
amount of capital in the process of upgrading and replacing portions of 
pipelines throughout our system to assure ongoing safe and reliable 
service to our customers. Columbia also incorporates best-practice 
techniques into our operations and maintenance programs to minimize 
disruption both to our customers and to property owners along the 
pipeline.
    One of these lines, which we refer to as Line 1278, was installed 
in 1948 in the then-rural northeast region of Pennsylvania. This line, 
which runs north-south along the state's eastern border, became and 
remains an important part of our energy delivery system to key eastern 
markets.
    Following an internal inspection of this pipeline, the United 
States Department of Transportation directed Columbia Transmission in 
2002 and 2003 to take actions going forward in its operation of Line 
1278, including additional testing, corrosion prevention and 
replacement of portions of the pipeline. To further comply with this 
directive, Columbia filed an application with the Federal Energy 
Regulatory Commission in December 2003 to replace about 43 miles of 
Line 1278, including a three and one-half mile section that now lies 
within the Delaware Water Gap Natural Recreation Area. This park was 
created by the National Park Service in 1965 through the acquisition of 
several parcels of property in the area.
    The issue addressed by the legislation before you today relates to 
the right-of-way agreements now held by the Park Service. Columbia's 
existing Line 1278 pipeline affects 14 of these tracts under the terms 
of the agreements negotiated with private property owners prior to the 
creation of the park. Of these, 12 agreements include language that 
allows Columbia to increase the diameter of its pipeline. However, two 
of the agreements, representing 892 linear feet, do not include such 
authorization.
    Under current law, the Secretary of the Interior lacks 
authorization to enter into modification agreements for the existing 
rights-of way to allow an increase in the diameter of Line 1278, as 
proposed and approved by the FERC, from 14 inches to 20 inches in 
diameter. To complete our project, we collaborated with National Park 
Service staff to craft language that was written into S. 1310, 
introduced jointly by Senators Specter and Santorum of Pennsylvania.
    Timely action on this legislation will result in several beneficial 
outcomes.
    First, the replacement will standardize the size of Line 1278 at 20 
inches in diameter throughout the area, which will in turn allow more 
efficient use of advanced internal inspection devices to assure safety 
and reliability of the pipeline and facilitate compliance with the 
directives of the DOT Pipeline Integrity Management Rule. Consistency 
in size is important for these devices, which transverse the inside of 
the pipe and have the advantage of allowing us to test our pipelines 
with the least disruption to our customers, to the communities adjacent 
to the line, and to the surrounding environment, while providing the 
most detailed information regarding the pipeline's operations and 
current condition.
    Second, it will allow Columbia to complete the upgrade of a 57-
year-old pipeline within the timeframe approved by the DOT. Columbia is 
currently operating the pipeline at a reduced pressure as part of our 
agreement with DOT and relying on available capacity in other pipelines 
to meet market obligations during periods of high demand. With the new, 
upgraded line in place, Columbia will be less dependent on this 
practice. The increase in diameter from 14-inches to 20-inches will 
also increase the overall delivery reliability in the region.
    Third, the replacement offers the added benefit of less intrusion 
in the future for maintenance and repair work in the Delaware Water 
Gap. Through use of today's pipeline coatings and other corrosion 
protection, regular inspections and participation in the Pennsylvania 
One Call Program, we can anticipate a useful life for the new pipeline 
that greatly exceeds the nearly 60 years of service provided by the 
existing pipeline.
    A critical point to note is that the replacement with the slightly 
larger diameter pipe will require no additional construction impacts 
and will not change the existing permanent right-of-way that currently 
exists with the Delaware Water Gap. The construction footprint is the 
same for the proposed 20-inch diameter pipe as it is for the existing 
14-inch diameter line.
    Columbia has been working closely with the National Park Service 
during the permitting process, including NEPA review and the issuance 
of a special use permit from the Park. Columbia has extensive plans in 
place for mitigating impacts during construction and for restoration 
following completion of our work. Park Service staff have been very 
helpful and cooperative in working toward a mutually-agreeable solution 
in this matter.
    In this regard, I want to bring to your attention a typographical 
error in the bill. On page 2, line 9 the bill refers to right-of-way 
number 16414. The number should be 16413. The Park Service is aware of 
this error and supports us in our request to change the right-of-way 
number during Committee consideration of the legislation.
    Mr. Chairman and Members of the Committee, I ask that my prepared 
statement be submitted for the record. Thank you for your time and 
attention, and I will be happy to address any questions you may have.

    Senator Talent. [presiding] Thank you, Mr. Roberts.
    Mr. Fowler.

STATEMENT OF JOHN FOWLER, EXECUTIVE DIRECTOR, ADVISORY COUNCIL 
                    ON HISTORIC PRESERVATION

    Mr. Fowler. Thank you, Mr. Chairman. I'm the executive 
director of the advisory council on Historic Preservation. It's 
a pleasure to testify before the subcommittee today on S. 1378, 
which would provide re-authorization for the Advisory Council 
on Historic Preservation and the Historic Preservation Fund. 
Chairman John Nau of the council regrets that he could not be 
here today; he is in Houston racing for Hurricane Rita. The 
National Historic Preservation Act, which created the ACHP, 
embodies the collective wisdom of the Congress in three 
concepts: the importance of preserving America's heritage, the 
need to build upon the foundation of our past to create a 
better future for the Nation, and the strength of linking 
Federal, State, tribal, and local efforts in partnership with 
the private sector to accomplish these ends.
    For nearly 40 years the ACHP has actively pursued the Act's 
goals, on behalf of the Congress, the President, and the 
American people. We have two primary roles under the Act: we 
administer the nationwide Federal protective process for 
historic properties, found in Section 106, and we promote 
historic preservation policies and support within the Federal 
Government. Details on our activities are included in a formal 
statement for the record.
    We are before you today because we need your assistance to 
continue to carry out our mission. The ACHP membership examined 
our current legislative authorities and determined that changes 
were needed.
    First, we need to replace the current time-limited 
appropriations authorization with a permanent authorization. 
Second, we would like to authorize the President to add the 
heads of three additional Federal agencies to the ACHP 
membership. Third, we would like the bill to authorize several 
technical amendments that would allow us to function more 
efficiently. And finally we would like an amendment to provide 
us with the authority and direction to work cooperatively with 
Federal funding agencies and to assist them in using the 
existing grants programs to more effectively pursue the 
purposes of the National and Historic Preservation Act.
    These provisions are included in S. 1378 and we would like 
to thank Senators Talent, and Wyden for their introduction of 
this bill. This is virtually identical to S. 2469 that was 
considered by the subcommittee in the last Congress. There is 
one new and very important provision that is contained in S. 
1378, extending the current authorization for the use of 
proceeds from oil and gas leases and sales on the Outer 
Continental Shelf to support the historic preservation fund 
through 2011. This fund supports essential components of the 
National Historic Preservation Program and the State and tribal 
preservation offices. These partners carry out critical 
missions for the Federal Government, and it's no overstatement 
to say that the current national program would be doomed to 
failure without their continued active involvement.
    The Historic Preservation Fund is the source of matching 
grants that are the lifeblood of these programs. We're pleased 
to see the funds authorization included in S. 1378 and urge the 
subcommittee's support.
    I would also note that the National Park Service in its 
testimony proposed to extend the authorization to 2015, and the 
Council would certainly support that.
    As a final note, I would like to draw the committee's 
attention to changes that are being discussed in the House 
Resources Committee that would drastically alter the current 
protections of Federal law for historic properties. Amendments 
to section 106 have been suggested that would severely restrict 
its application with particular impact on archeological 
resources and historic properties that are important to Native 
Americans. I would like to stress to the committee that the 
ACHP is formally opposed to such to changes of section 106.
    In closing, Mr. Chairman, the ACHP has reached true 
maturity as an independent Federal agency and is a key partner 
in the National Historic Preservation Program. As such, it 
wants the support of the Congress for a re-authorization 
proposal. We hope the subcommittee will favorably consider this 
request. Thank you.
    [The prepared statement of Mr. John L. Nau, III follows:]

 Prepared Statement of John L. Nau, III, Chairman, Advisory Council on 
                         Historic Preservation

                           SUMMARY STATEMENT

    An independent Federal agency, the Advisory Council on Historic 
Preservation (ACHP) promotes historic preservation nationally by 
providing a forum for influencing Federal activities, programs, and 
policies that impact historic properties. In furtherance of this 
objective, S. 1378 provides reauthorization of its appropriations in 
accordance with the provisions of the National Historic Preservation 
Act of 1966, as amended (16 U.S.C. 470 et seq.) (NHPA). The bill also 
offers amendments to the ACHP's authorities that we believe will 
strengthen our ability to meet our responsibilities under NHPA, and to 
provide leadership and coordination in the Federal historic 
preservation program.

                               BACKGROUND

    Title II of the NHPA established the ACHP. NHPA charges the ACHP 
with advising the President and the Congress on historic preservation 
matters and entrusts the ACHP with the unique mission of advancing 
historic preservation within the Federal Government and the national 
historic preservation program. In FY 2002, the ACHP adopted the 
following mission statement:

        The Advisory Council on Historic Preservation promotes the 
preservation, enhancement, and productive use of our Nation's historic 
resources, and advises the President and Congress on national historic 
preservation policy.

    The ACHP's authority and responsibilities are principally derived 
from NHPA. General duties of the ACHP are detailed in Section 202 (16 
U.S.0 470j) and include:

  <bullet> Advising the President and Congress on matters relating to 
        historic preservation;
  <bullet> Encouraging public interest and participation in historic 
        preservation;
  <bullet> Recommending policy and tax studies as they affect historic 
        preservation;
  <bullet> Advising State and local governments on historic 
        preservation legislation;
  <bullet> Encouraging training and education in historic preservation;
  <bullet> Reviewing Federal policies and programs and recommending 
        improvements; and
  <bullet> Informing and educating others about the ACHP's activities.

    Under Section 106 of NHPA (16 U.S.C. 470f), the ACHP reviews 
Federal actions affecting historic properties to ensure that historic 
preservation needs are considered and balanced with Federal project 
requirements. It achieves this balance through the ``Section 106 review 
process,'' which applies whenever a Federal action has the potential to 
impact historic properties. As administered by the ACHP, the process 
guarantees that State and local governments, Indian tribes, businesses 
and organizations, and private citizens will have an effective 
opportunity to participate in Federal project planning affecting 
important historic properties.
    Under Section 211 of NHPA (16 U.S.C. 470s) the ACHP is granted 
rulemaking authority for Section 106. The ACHP also has consultative 
and other responsibilities under Sections 101, 110, 111, 203, and 214 
of NHPA, and in accordance with the National Environmental Policy Act 
(42 U.S.C. 4321 et seq.) is considered an agency with ``special 
expertise'' to comment on environmental impacts involving historic 
properties and other cultural resources.
    The ACHP plays a pivotal role in the national historic preservation 
program. Founded as a unique partnership among Federal, State, and 
local governments, Indian tribes, and the public to advance the 
preservation of America's heritage while recognizing contemporary 
needs, the partnership has matured and expanded over time. The 
Secretary of the Interior and the ACHP have distinct but complementary 
responsibilities for managing the national historic preservation 
program. The Secretary, acting through the Director of the National 
Park Service, maintains the national inventory of historic properties, 
sets standards for historic preservation, administers financial 
assistance and programs for tribal, State, and local participation, and 
provides technical preservation assistance.
    The ACHP also plays a key role in shaping historic preservation 
policy and programs at the highest levels of the Administration. It 
promotes consistency in Federal preservation efforts and assists 
Federal agencies in meeting their preservation responsibilities. 
Through its administration of Section 106, the ACHP works with Federal 
agencies, States, tribes, local governments, applicants for Federal 
assistance, and other affected parties to ensure that their interests 
are considered in the process. It helps parties reach agreement on 
measures to avoid or resolve conflicts that may arise between 
development needs and preservation objectives, including mitigation of 
harmful impacts.
    The ACHP is uniquely suited to its task. As an independent agency, 
it brings together through its membership Federal agency heads, 
representatives of State and local governments, historic preservation 
leaders and experts, Native American representatives, and private 
citizens to shape national policies and programs dealing with historic 
preservation. The ACHP's diverse membership is reflected in its efforts 
to seek sensible, cost-effective ways to mesh preservation goals with 
other public needs. Unlike other Federal agencies or private 
preservation organizations, the ACHP incorporates a variety of 
interests and viewpoints in fulfilling its statutory duties, broadly 
reflecting the public interest. Recommended solutions are reached that 
reflect both the impacts on irreplaceable historic properties and the 
needs of today's society.
    New Directions. Since assuming the chairmanship in November 2001, I 
have taken steps to ensure that the ACHP fulfills the leadership role 
envisioned for it in NHPA. In doing so, we have focused the ACHP on 
pursuing the broader policy goals of the national historic preservation 
program.
    In creating the ACHP, Congress recognized the value of having an 
independent entity to provide advice, coordination, and oversight of 
NHPA's implementation by Federal agencies. The ACHP remains the only 
Federal entity created solely to address historic preservation issues, 
and helps to bridge differences in this area among Federal agencies, 
and between the Federal Government and States, Indian tribes, local 
governments, and citizens. While the administration of the historic 
preservation review process established by Section 106 of NHPA is very 
important and a significant ACHP responsibility, we believe that the 
ACHP's mission is broader than simply managing that process.
    NHPA established a national policy to ``foster conditions under 
which our modem society and our prehistoric and historic resources can 
exist in productive harmony and fulfill the social, economic and other 
requirements of present and future generations.'' Among other things, 
the statute directed Federal agencies to foster conditions that help 
attain the national goal of historic preservation; to act as faithful 
stewards of federally owned, administered, or controlled historic 
resources for present and future generations; and to offer maximum 
encouragement and assistance to other public and private preservation 
efforts through a variety of means.
    To promote this policy and to exercise its intended leadership, the 
ACHP has taken the following steps, working through its membership and 
with its partner Federal agencies:

  <bullet> Developed an Executive order to promote the benefits of 
        preservation, to improve Federal stewardship of historic 
        properties, and to foster recognition of such properties as 
        national assets to be used for economic, educational, and other 
        purposes. President Bush issued this as Executive Order 13287, 
        ``Preserve America,'' on March 3, 2003.
  <bullet> Created an initiative for the White House to stimulate 
        creative partnerships among all levels of government and the 
        private sector to preserve and actively use historic resources 
        for a better appreciation of America's history and diversity. 
        The initiative is known as Preserve America and was announced 
        by First Lady Laura Bush on March 3, 2003.
  <bullet> Undertook a major new initiative to improve the 
        participation of Native Americans in the national historic 
        preservation program by establishing a Native American Advisory 
        Group.

    The ACHP's 20 statutorily designated members address policy issues, 
direct program initiatives, and make recommendations regarding historic 
preservation to the President, Congress, and heads of other Federal 
agencies. The Council members meet four times per year to conduct 
business, holding two meetings in Washington, D.C., and two in other 
communities where relevant preservation issues can be explored. 
However, myself and other Council members are actively involved in 
Council business on a continual basis, particularly since January 2004 
when the Administration's Preserve America initiative began to rapidly 
gain momentum.
    The ACHP has a leading role in both the Preserve America Steering 
Committee and the staff efforts to carry out specific Preserve America 
activities. In coordination with the White House, the Preserve America 
Steering Committee sets policy and oversees the initiative. At the 
operational level, ACHP staff works with partner Federal agencies to 
implement the Preserve America Communities and Preserve America 
Presidential Awards programs. For FY 2006, we will work closely with 
the National Park Service to operate the new Preserve America grants 
program.
    The ACHP also works with Federal agencies, including their senior 
policy level officials designated in response to the Preserve America 
Executive order. In February 2006, we will submit a report to the 
President assessing the efforts of Federal agencies to manage their 
historic properties in a manner that promotes historic preservation.
    Our Native American Advisory Group works with the membership and 
our staff-level Native American Program to improve relations and 
coordination of efforts with the tribes and Tribal Historic 
Preservation Officers in regard to issues of historic preservation. 
These issues are of particular and unique importance to tribes from 
both economic and cultural perspectives.
    The staff carries out the day-to-day work of the ACHP and provides 
all support services for Council members programs. To reflect and 
support the work of the committees, the Executive Director reorganized 
the ACHP staff into three program offices to mirror the committee 
structure. Staff components are under the supervision of the Executive 
Director and are located at the ACHP's headquarters in Washington, D.C.
     proposed amendments to the national historic preservation act
    Background to Reauthorization. The ACHP traditionally has had its 
appropriations authorized on a multi-year cycle in Title II of NHPA 
(Section 212, 16 U.S.C. 470t). The current cycle expires at the end of 
FY 2005 and authorizes $4 million annually. These funds are provided to 
support the programs and operations of the ACHP. Title II of NHPA also 
sets forth the general authorities and structure of the ACHP.
    The ACHP seeks to amend its appropriation authorization for two 
reasons. First, the authorization extends only through FY 2005 and must 
be renewed for FY 2006 and beyond. Second, the ACHP is seeking certain 
changes in its membership and operational authorities to better equip 
it to meet its current mission. At its February and May 2003 meetings, 
the ACHP endorsed an approach to the reauthorization issue that 
addresses the immediate appropriations authority issue and also 
contains the desired amendments to the ACHP's composition and 
authorities. S.2469, ``A bill to amend the National Historic 
Preservation Act to provide appropriation authorization and improve the 
operations of the Advisory Council on Historic Preservation,'' was 
introduced by the Honorable James M. Talent May 20, 2004. A hearing was 
held before this subcommittee June 8, 2004. A companion bill, H.R. 
3223, was introduced and referred to the House Resources Committee.
    The legislation was not enacted in the 108th Congress and, on July 
11, 2005, Senator Talent and Senator Wyden introduced S. 1378. This 
bill is virtually identical to S. 2469, with the inclusion of a 
provision to extend the authorization for the Historic Preservation 
Fund. A companion bill has been introduced in the House of 
Representatives as H.R. 3446.
    The changes sought by the ACHP and contained in S. 1378 are 
explained in this overview.
    Appropriations Authorization. This provision (Section 1(g)) would 
amend the current time-limited authorization and replace it with a 
permanent appropriations authorization. When the ACHP was created in 
1966, its functions were exclusively advisory and limited, and the 
agency was lodged administratively in the Department of the Interior. 
Since then, the Congress has amended the NHPA to establish the ACHP as 
an independent Federal agency and provide it with a range of program 
authorities crucial to the success of the national historic 
preservation program.
    Not unlike the Commission of Fine Arts (CFA) and the National 
Capital Planning Commission (NCPC), the ACHP now functions as a small 
but important Federal agency, carrying out both advisory and 
substantive program duties. Specific language creating a permanent 
appropriations authorization would draw upon the similar statutory 
authorities of the CFA and NCPC. No ceiling to the annual 
appropriations authorization would be included in the authorizing 
legislation, but rather the appropriate funding limits would be 
established through the annual appropriations process.
    Expansion of Membership. This provision (Section 1(d)) would expand 
the membership of the ACHP by directing the President to designate the 
heads of three additional Federal agencies as members of the ACHP. The 
ACHP has been aggressively pursuing partnerships with Federal agencies 
in recent years and has found the results to be greatly beneficial to 
meeting both Federal agency historic preservation responsibilities and 
the ACHP's own mission goals. Experience has shown that these 
partnerships are fostered and enhanced by having the agency participate 
as a full-fledged member of the ACHP, giving it both a voice and a 
stake in the ACHP's actions. The amendment would bring the total number 
of Federal ACHP members to nine and expand the ACHP membership to 23, 
an administratively manageable number that preserves the current 
majority of non-Federal members. A technical amendment to adjust quorum 
requirements would also be included.
    Authority and Direction to Improve Coordination with Federal 
Funding Agencies. This provision (Section 1(h)) would give the ACHP the 
authority and direction to work with Federal funding agencies to assist 
them in determining appropriate uses of their existing grants programs 
for advancing the purposes of NHPA.
    The ACHP would work with agencies and grant recipients to examine 
the effectiveness of existing grant programs, evaluate the adequacy of 
funding levels, and help the agencies determine whether changes in the 
programs would better meet preservation and other needs. Any 
recommendations would be developed in close cooperation with the 
Federal funding agencies themselves, many of whom sit as ACHP members, 
and with the States. The proposed amendment also would allow the ACHP 
to work cooperatively with Federal funding agencies in the 
administration of their grant programs.
    Technical Amendments. These provisions would provide four technical 
changes that would improve ACHP operations:

          1. Authorize the Governor, who is a presidentially appointed 
        member of the ACHP, to designate a voting representative to 
        participate in the ACHP activities in the Governor's absence. 
        Currently this authority is extended to Federal agencies and 
        other organizational members. The amendment would recognize 
        that the personal participation of a Governor cannot always be 
        assumed, much like that of a Cabinet secretary (Section 
        1(d)(2)).
          2. Authorize the ACHP to engage administrative support 
        services from sources other than the Department of the 
        Interior. The current law requires the ACHP's administrative 
        services to be provided by the Department of the Interior on a 
        reimbursable basis. The amendment would authorize the ACHP to 
        obtain any or all of those services from other Federal agencies 
        or the private sector. The amendment would further the goals of 
        the FAIR Act and improve ACHP efficiency by allowing the ACHP 
        to obtain necessary services on the most beneficial terms 
        (Section 1(e)).
          3. Clarify that the ACHP's donation authority (16 U.S.C. 
        470m(g)) includes the ability of the ACHP to actively solicit 
        such donations (Section 1(f)).
          4. Adjust the quorum requirements to accommodate expanded 
        ACHP membership (Section 1(d)(3)).

    Extension of Authorization for the Historic Preservation Fund. This 
provision (Section 1(c)) would extend the existing authorization for 
$150 million annually from the proceeds of oil and gas leases on the 
Outer Continental Shelf to be made available for the Historic 
Preservation Fund. We believe this concept of using part of the 
proceeds from the depletion of the Nation's non-renewable resources to 
preserve and enhance another non-renewable resource, our cultural 
heritage, is sound and merits continuation. The fund supports the 
valuable activities of the various State Historic Preservation Officers 
and Tribal Historic Preservation Officers, our principal partners in 
carrying out the NHPA's authorities. In addition, the fund makes 
possible the President's Preserve America grants program, which has 
been funded by the Congress for FY 2006. Extending this authority 
through FY 2011 is essential and is welcomed by the ACHP.

                               CONCLUSION

    The ACHP has reached a level of maturity as an independent Federal 
agency and as a key partner in the national historic preservation 
program to warrant continued support from the Congress. As demonstrated 
by its recent program accomplishments including the President's 
Executive Order 13287, the Preserve America initiative, and the Native 
American Program, the ACHP is a vital component of the Federal historic 
preservation program. We believe that the legislation we seek, coupled 
with periodic oversight by this Subcommittee and the annual review 
provided by the Appropriations Committees, is fully justified by our 
record of accomplishment. We hope that the Subcommittee will favorably 
consider this request, including our recommended technical amendments 
and the important extension of the Historic Preservation Fund 
authorization.
    We appreciate the Subcommittee's interest in these issues, and 
thank you for your consideration and the opportunity to present our 
views.

    Senator Talent. I appreciate your testimony, Mr. Fowler. 
Here's what I'm going to have to do--I'm sorry for all the 
movement up here on the dais, we have two votes going on now. 
Actually, one is about to end and another is about to pick up, 
and the chairman asked me to take gavel so that we could get 
more of the testimony in. He is coming back, so if the 
witnesses will be patient with us, I'm going to recess the 
hearing and the chairman should be back any moment. I will then 
go and vote and the chairman can reopen the hearing and we can 
get Mr. Slavin's testimony in. The hearing is recessed, until 
the return of the chairman.
    [Recess.]
    Senator Thomas. Mr. Slavin.

  STATEMENT OF TIM SLAVIN, DIRECTOR, HISTORICAL AND CULTURAL 
                   AFFAIRS, STATE OF DELAWARE

    Mr. Slavin. Thank you, Mr. Chairman, for this opportunity 
to discuss the possibility of a study to determine the 
suitability and feasibility of a national park unit for 
Delaware.
    My name is Tim Slavin and I serve as the director of 
historical and cultural affairs for the State of Delaware. I 
oversee the management of more than thirty historic sites and 
properties in Delaware, including museums, historic homes, 
lighthouses, and at least two shipwrecks that we know of, off 
Delaware's ocean and bay coast. I am one of many Delawareans 
interested in this matter. We greatly appreciate the time and 
effort of Senator Carper in forwarding this cause and thank you 
for holding this hearing today.
    This past Saturday, I was visiting my 10-year-old daughter 
in Colorado. She lives there with her mother and for the past 7 
years, I've made monthly visits to be with her. Our plans 
called for an overnight camping trip to Rocky Mountain National 
Park in Estes Park, Colorado. I explained to my daughter that 
this was a national park, similar to the one at the Grand 
Canyon which we had camped in during the summer of 2004.
    Like a good 10-year-old, she was unfazed. When we arrived 
at the gated entrance to the park and she saw the familiar 
signage and the familiar hats of the National Park Service 
rangers, she said something very insightful ``oh, yeah.''
    Her simple recognition was evidence of something, I think, 
far deeper. She was familiar with our national parks, and it 
brought her an immediate sense of comfort and security.
    As our day progressed, I found that the national parks had 
taught her other things, as well. She became a very 
conscientious steward of the land she was visiting, mindful of 
not disturbing anything and making sure that every last 
bubblegum wrapper was stuffed into my pocket. She left only 
footprints, because the national parks had taught her that. She 
was also amazed by how many different kinds of people were 
using the park, and noted how many different States' license 
plates were there.
    And she became very proud. She was proud of her beautiful 
adopted State, she was proud of her country, and she was proud 
that such a beautiful and important place was cared for by so 
many people.
    I told her that I would be in Washington to testify on 
behalf of a national park for Delaware and she said something 
else which was very insightful: ``Just do it.''
    So here I am today, on behalf of my daughter and many 
Delawareans recommending that this bill be passed and Delaware 
be afforded what every other State in our country has, 
inclusion in the National Park System.
    Why should Delaware have a national park? The answers are 
simple. The first is that Delaware deserves it. We have a rich 
history and heritage and a unique place in American history, 
and likewise, the natural beauty and landscape of our coastline 
is matched only by the important role we have played--the 
coastline has played throughout our history. The second is that 
our national heritage deserves it. The importance of Delaware's 
history and heritage cannot, and should not, be left out of any 
consideration of American history. And to think that our 
National Park System would not address the importance of such 
places as Fort Christina, the Delaware Bay and coastal towns 
along the river and bays, and would realize that there's a void 
in the telling of our natural and historical landscapes. And 
the third is that our citizens deserve it. Every American 
citizen deserves the right to access our history and heritage 
in every State.
    A significant amount of thought has been put into what a 
National Park in Delaware should look like, and we look forward 
to working with the National Park Service on this study. I 
believe the study will demonstrate that the Senator's proposal 
does in fact represent a historical and cultural concept that 
is of National significance, suitable for inclusion in the 
National Park System and very feasible to implement.
    First, Senator Carper's proposal for a park unit that 
embodies and highlights the critical and vital role that 
Delaware's coastal regions have played in the history of our 
State and the cultural development of our society is truly of 
national significance. Delaware's coastal region is a microcosm 
of America's coastal regions, and as such, the various threads 
of development evident in our coastal region are representative 
of the broader development of these same threads that make up 
the fabric of our uniquely American society. Those threads 
include the early history of the indigenous peoples with the 
Lenni Lenape and the Nanticoke Indians, and the later valiant 
efforts of the Underground Railroad with points along 
Delaware's coastline being the ``last stop to freedom'' for 
slaves escaping to the North.
    These threads also include the colonization established on 
the Frontier, with the European settlers building Fort 
Christina, what is now Wilmington, in 1638. Along our coastline 
can be found the home the John Dickinson, the ``Penman of the 
Revolution'', along with examples of America's earliest 
exploitation of water power along the Brandywine River, of 
transportation systems that connected early settlers with other 
colonies and Europe, and with coastal defenses that protected 
Delaware and America from the earliest days, like Fort 
Christina, right through to submarine watchtowers constructed 
in World War II.
    These contributions are undoubtedly significant to the 
historical, cultural and commercial development of America and 
I can think of no more suitable way for us to highlight these 
contributions than as a national park.
    Last, we believe that this will be among the least expense 
park units to develop and to operate, yet it would preserve for 
future generations the magnificent history and cultural 
development that I've mentioned. Unfortunately, over the years, 
neither the local nor State governments in Delaware have been 
able to muster the resources to adequately preserve, recreate 
or highlight these wonderful resources. That is why it is so 
important to authorize this study--with each passing year, we 
get further and further away and the task becomes more and more 
difficult.
    In 1903, in the midst of the movement to create a National 
Park System, Theodore Roosevelt stated that ``above all, we 
should recognize that the effort toward this end is essentially 
a democratic movement.'' More than 100 years later, the 
movement to create a national park in Delaware has respected 
both Roosevelt's words and the long and important history of 
national parks in our country.
    A national park for Delaware is needed, necessary, and long 
overdue. Let us create an opportunity in Delaware for all 
citizens to share in their national heritage, to become 
stewards of our natural and historical landscape, and to have 
pride in a country which provides all of these things for its 
citizens. The American experience exists in the stitching 
together of all such national treasures in all of our States. 
Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you, and thanks to all of you. I 
think these are all very interesting, you've done a very nice 
job. On the Farmington River, you will be making our study--I'm 
sure you will give some thought to the impact that it has on 
private properties that surround it. That is always an issue 
that we have with Wild and Scenic Rivers. But I can 
understand--particularly in your areas, where the population is 
pretty heavy--that it's very important to recognize these 
special areas and set them aside.
    Ms. Barry, I thank you very much. I think, from your 
testimony, you indicated that, even though not formal, there 
has been a study of this and lots of people involved in it, and 
so this is not a study, but rather an effort to go ahead and 
designate this.
    One question on S. 310, Mr. Roberts. Why is this needed? I 
mean it's my understanding that these pipelines are already 
used in parts of it, and this is a segment, so how did it 
happen that this wasn't allocated and provided for before?
    Mr. Roberts. The authorization to upsize it?
    Senator Thomas. Yes.
    Mr. Roberts. Back in 1948, when the line was built, 
apparently the rights that we entered into, the right-of-way 
agreements with the private property owners at that time--
whether it was an oversight or they didn't realize that they 
had missed it--to enter the right to upsize the pipe in the 
future, it wasn't done.
    Senator Thomas. But you're upsizing it in part of the 
pipeline, right?
    Mr. Roberts. We're upsizing the entire pipeline.
    Senator Thomas. I know, but what part of it are you talking 
about here?
    Mr. Roberts. We're talking about two segments, totaling 
about 900 feet.
    Senator Thomas. That's why I'm saying, why did that have to 
be done individually?
    Mr. Roberts. Individually?
    Senator Thomas. Well, the rest of it's there, all you're 
doing is taking 900 feet out of miles of pipeline.
    Mr. Roberts. Oh, I'm sorry. The project is actually 43 
miles long that we're replacing and upsizing to 20-inch.
    Senator Thomas. But this authorization to increase it is 
not for the whole 40 miles, is it? It's just for this portion?
    Mr. Roberts. Just for this 900-foot section, yes.
    Senator Thomas. But it takes a special designation to do 
that?
    Mr. Roberts. Yes.
    Senator Thomas. Is that the only portion that is the 
recreation area?
    Mr. Roberts. No, there are other portions, but the rights 
that were taken back in 1948, they had the upsize rights 
entered into the right-of-way agreements.
    Senator Thomas. I got you. All right. Thank you. Mr. 
Fowler, certainly things have changed in terms of the role of 
the advisory council, and therefore, certainly, it makes sense 
to take a look at changing the operational process under which 
you live, so we appreciate your being here. And we will 
certainly look at it, and we have heard quite a little bit 
about your project now between you and Mr. Carper. And it will 
be a study, and it sounds like it will be an interesting one, 
so thank you for your information. Otherwise, I have no further 
questions. We appreciate your being here, and we will seek to 
move ahead. And Senator Corzine's statement will be put in the 
record.
    [The prepared statement of Senator Corzine follows:]

   Prepared Statement of Hon. Jon S. Corzine, U.S. Senator From New 
                           Jersey, on S. 1096

    Thank you, Mr. Chairman, for calling this hearing today to hear 
testimony on the Musconetcong Wild and Scenic Rivers Act, which I 
introduced earlier this year.
    I am especially pleased that Beth Styler Barry Executive Director 
of the Musconetcong Watershed Association is here to testify on behalf 
of this important bill. She has worked tirelessly on this issue for 
years and I would like to thank her for all of the hard work she and 
her colleagues have done to protect the river.
    As you know, the Musconetcong Wild and Scenic Rivers Act would 
designate 24.2 miles of the Musconetcong River in New Jersey as part of 
the National Wild and Scenic Rivers System.
    Stretching a full 43 miles from Lake Musconetcong to the Delaware 
River, the Musconetcong River is one of the most scenic areas of 
Northwestern New Jersey. The Musconetcong watershed offers 5,045 acres 
of parks, some of the finest trout fishing streams in New Jersey, and 
miles of hiking trails. Not only is the beauty of the Musconetcong 
breathtaking and its recreational use remarkable, but the river holds 
archaeological and historic significance as well. For example, Waterloo 
Village is a National Historic Site that gained fame when its iron 
works were used to supply the George Washington's Continental Army with 
armaments. In addition, the Paleo-Indian archaeological site known as 
the Plenge site sits in the Musconetcong river valley. The Plenge site 
dates back 12,000 years and is considered to be one of the most 
important Paleo-Indian archaeological site excavations in the 
northeastern United States.
    Even with all of these unique aspects, the river's banks are in 
jeopardy. Its once pristine waters face deteriorating water quality due 
to increased levels of bacteria, silt and runoff from roadways. This is 
particularly disturbing since the river feeds aquifers that provide 
many residents in Hunterdon and Warren counties with quality drinking 
water. Unfortunately, while the municipalities that lie along the river 
want to preserve this historic natural resource, they lack the 
resources to do so, leaving the entire watershed vulnerable to further 
development and damage.
    Thirteen of these surrounding municipalities and three New Jersey 
counties have expressed their support for the designation of the river 
as part of the National Wild and Scenic River System and are also 
supportive of the Musconetcong River Management Plan, which was 
developed in April 2003 with the help of the National Parks Service. 
The Musconetcong Wild and Scenic Rivers Act calls on federal, state, 
and local agencies to work in cooperation with environmental and public 
interest groups to establish goals and actions to ensure long-term 
protection of the outstanding values of the Musconetcong River and 
proper management of land and water resources associated with the 
river. The bill authorizes funds to facilitate the conservation of the 
river segment with the purpose of promoting uses and development of the 
river while maintaining its integrity as a natural resource.
    Mr. Chairman, the recreational, ecological, historical and 
geological benefits of the Musconetcong River are countless, and I urge 
my Senate colleagues to approve the Musconetcong Wild and Scenic Rivers 
Act so that generations of New Jerseyans can continue to enjoy its 
magnificence for years to come.

    Senator Thomas. Thank you again, we appreciate it very 
much. The committee is adjourned.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

              Responses to Questions by Michael W. Roberts
    Question 1. (S. 1310, Delaware Water Gap National Recreation Area 
Natural Gas Pipeline Enlargement Act): When was the pipeline first 
installed and operational in the recreation area? Has Columbia Gas 
Transmission been responsible for operating and maintaining the 
pipeline the entire time?
    Answer. The pipeline was installed in 1948. This installation 
occurred before the property, which included Line 1278, was transferred 
to the Department of the Interior for use as a recreation area. Our 
company has been operating and maintaining this pipeline for the entire 
time.
    Question 2a. (S. 1310, Delaware Water Gap National Recreation Area 
Natural Gas Pipeline Enlargement Act): The proposed legislation 
authorizes the existing 14-inch pipeline to be replaced with a 20-inch 
pipeline.
    How many customers receive gas through the existing pipeline?
    Answer. This pipeline provides natural gas to local distribution 
companies in the states of Pennsylvania, New Jersey and New York. These 
companies, which receive service from Line 1278 as well as other 
interstate pipelines serve more than a million customers.
    This project, however, is not about serving more customers. Rather, 
the primary purpose of this project is to replace facilities for 
reasons of age and condition, and to restore normal operating 
conditions on Columbia's pipeline system in this area, and not to 
increase its available capacity. The 20-inch pipeline is necessary to 
maintain consistency with the pipeline diameter installed in the rest 
of the line 1278 replacement and to allow for more efficient internal 
inspection, including pigging, consistent with Department of 
Transportation safety objectives.
    Question 2b. How many additional customers would the larger 
pipeline be able to serve?
    Answer. No additional customers will be served solely due to the 
replacement project addressed by the legislation. Because the existing 
14-inch pipeline will be replaced with 20-inch pipeline, the project 
will create a minor increase in capacity. However, the increase is in a 
very localized area of the system and cannot be used to serve 
additional markets in the absence of further construction.
    Question 3a. (S. 1310, Delaware Water Gap National Recreation Area 
Natural Gas Pipeline Enlargement Act): The proposed bill authorizes a 
50-foot right of way for the pipeline.
    What is the width of the current right of way?
    Answer. The existing permanent right of way width is 50 feet. Thus, 
the proposed bill will not authorize an expanded permanent right of way 
beyond what currently exists. However, the NPS, the FERC, and Columbia 
have collaborated to develop an extensive plan, which includes various 
mitigation aspects, as well as specific Best Management Practices for 
use during construction within all areas of the Recreation Area. These 
plans have been integrated into both the Environmental Assessment 
issued by the FERC and the Special Use Permit issued to Columbia by the 
NPS.
    Question 3b. What type of mitigation, if any, does Columbia Gas 
Transmission contemplate as an offset for clearing a 50-foot swath 
through the recreation area?
    Answer. In addition to the environmental mitigation measures 
proposed by Columbia in its project application, the FERC's 
Environmental Assessment proposed certain conditions, that were adopted 
in the FERC Certificate Order and accepted by Columbia, to minimize the 
effect of construction on cultural resources and the environment. The 
FERC Certificate Order concluded that approval of the project, with 
appropriate mitigating measures, would not constitute a major federal 
action significantly affecting the quality of the human environment.
    Attached is a copy of the Environmental Assessment.*
---------------------------------------------------------------------------
    * Retained in subcommittee files.
---------------------------------------------------------------------------
    Question 4. (S. 1310, Delaware Water Gap National Recreation Area 
Natural Gas Pipeline Enlargement Act): The proposed pipeline corridor 
involves Federal land and for that reason the upgrade could be 
considered a Federal undertaking. What type of compliance actions do 
you anticipate prior to construction to meet the requirements of the 
National Environmental Policy Act and other environmental laws?
    Answer. The Federal Energy Regulatory Commission with the Park 
Service as a cooperating agency prepared an Environmental Assessment to 
satisfy the requirements of NEPA. Among other things, the EA addressed 
potential effects of the project on: geology, soils, water resources, 
vegetation, wildlife, threatened and endangered species, cultural 
resources, land use and recreation, visual resources, air quality and 
noise, reliability and safety, environmental justice, and project 
alternatives, including the ``no action alternative.'' The EA was 
issued for public review and comment as part of the FERC certificate 
process.
                                 ______
                                 
     Responses of Eric Hammerling to Questions From Senator Thomas
    Question 1. Are you aware of any groups or individuals that are 
opposed to Wild & Scenic River designation for the Lower Farmington 
River and Salmon Brook?
    Answer. No.
    Question 2. What type of restrictions does Wild & Scenic River 
designation impose on land owners along the river?
    Answer. S. 435 would impose no restrictions whatsoever on land 
owners along the Lower Farmington River or Salmon Brook. Under the 
Partnership Wild & Scenic River model, all land use decisions would 
remain as the responsibility for local towns and their local land-use 
commissions, not the federal government.
                                 ______
                                 
       Responses of John Fowler to Questions From Senator Thomas
    Question 1a. The Department of the Interior has been responsible 
for managing finances for the Advisory Council under existing 
legislation. S. 1378 gives the Council authority to use a private 
accounting service at the discretion of the Council.
    What sort of difficulty has the Advisory Council experienced under 
current financial arrangements with the Department of the Interior?
    Answer. Some specific areas of difficulty that we have had over the 
years include financial accounting, procurement, and travel support. 
When the Council underwent its first audit as required by the 
Accountability for Tax Dollars Act in FY 2005, our independent auditors 
were unable to get accurate financial reports for a protracted period. 
Much time was spent attempting to verify records and reconcile numbers, 
so that in the end our audit was submitted to us on September 15, 2005, 
instead of November 15, 2004, its formal due date. Similarly, we find 
ourselves confronted with charges, often significant, from prior fiscal 
years, long after the fiscal year has ended. For FY 2004, for instance, 
the ACHP made $110,556 in adjustments to our accounts after the fiscal 
year ended when the auditors uncovered various problems. We believe 
that we can do better.
    Procurement has been a perennial problem, ranging from lengthy 
delays in processing payments for contract services to impediments to 
necessary acquisitions. The former has damaged our relations with some 
of our vendors and the latter has caused us to lose desired services, 
such as hotel bookings for Council meetings.
    Travel support has also been a problem in the past. Ranging from 
assistance in travel arrangements to processing of travel vouchers, our 
experience in prior years has frustrated Council staff and 
presidentially appointed members alike. Recent changes to a commercial 
travel agent, made by the Department for all its travel needs, has 
improved travel support and processing improvements by the National 
Business Center have eased the reimbursement problems.
    It is important to note that the Council is charged a substantial 
fee for the administrative and financial services provided by the 
Department. In FY 2005, it was $211,100 (4.7% of the Council budget) 
and in FY 2006 it will rise to $231,182 (4.8%). The Council is assessed 
a portion of the Department's Working Capital Fund and has virtually no 
leeway in negotiating a better deal. This lack of negotiating ability 
is the product of a monopoly held by the Department as to providing 
services to the Council.
    Question 1b. Which other Federal organizations, if any, have 
authority to use a private entity for financial management services?
    Answer. Note from the outset that the FAIR Act encourages Federal 
agencies to outsource functions that are ``not inherently 
governmental'', so there is a general policy that supports use of 
private sector contractors to provide services, such as financial and 
administrative support, to Federal agencies. Few agencies have a 
specific authorization that enables them to contract for services. 
Rather, this ability is part of their general authorities as a Federal 
agency, augmented by the recent enactment of the FAIR Act. What sets 
the Council apart is the limitation of the NI-IPA that directs the 
Department to be the provider of services to the Council. We seek only 
the flexibility that other agencies have to make sound business 
decisions regarding essential support services.
    Question 1c. Why is the Advisory Council interested in having the 
option of obtaining financial management assistance from a private 
entity?
    Answer. For the reasons noted previously, we believe that having 
the flexibility to obtain services from providers other than the 
Department could improve our efficiency and save the Council money. It 
is important to note that we are not seeking authority exclusively to 
contract with the private sector; we are seeking the authority to find 
the best service at the best possible price. Nor are we seeking to take 
all of our business from the Department. The language proposed in S. 
1378 would gives us the ability to go to other Federal agencies and 
negotiate with them for services. In addition to the National Business 
Center at the Department of the Interior, the Office of Management and 
Budget has identified three agencies as ``centers of excellence'' to 
provide financial services: the Administrative Resource Center at 
Treasury; the Enterprise Service Center at Transportation; and the 
Financial Management Line of the Business Center of Excellence at the 
General Services Administration. Since we have not had the authority to 
find this service elsewhere, we have not shopped and do not know if the 
best service at the most reasonable price will lead us to a private 
entity, another government provider or the Department of the Interior.
    Question 2. The Advisory Council was established to serve in an 
advisory capacity to the Executive Branch on matters concerning 
historic preservation. S. 1378 appears to expand the role of the 
Advisory Council into program management. Why should Congress expand 
the role of your organization and add to the Federal bureaucracy at 
this time?
    Answer. Since its inception in 1966, the Council, along with the 
national historic preservation program, has constantly evolved. When 
the Council was set up in 1966, it was a simple advisory body, staffed 
by the National Park Service. Over the years it assumed and was given 
an increasingly substantive role in the program. In 1976, the Congress 
recognized the key role of the Council in the Section 106 process and 
authorized the Council to issue regulations to implement that part of 
the NHPA. The Congress also made the Council an independent agency, 
with an administrative structure that reflected its growth from a 
purely advisory group to one with important day-to-day duties.
    Likewise, the Council's administration of the Section106 process 
has led to the development of a well-received training program and 
specific authority from the Congress to sue in Federal Court to enforce 
the act's protective provisions.
    The executive branch has also acknowledged the critical role of the 
Council, beyond that of providing advice. Executive Order 13287, 
Preserve America, has spawned the first comprehensive White House 
historic preservation initiative. The Council has been given a 
prominent role in the oversight of that initiative, co-chairing the 
Preserve America Steering Committee and managing certain of the program 
functions for the White House.
    The evolution of the Council's role is the story of a small but 
capable agency overseeing the needs presented by the National Historic 
Preservation Program. Working closely with the Congress and the 
Administration, the Council has been charged with new authorities and 
duties that have become essential to the success of the program. S. 
1378 recognizes that history and adds one more area, cooperating with 
Federal agencies in shaping their grant programs, where the 
preservation expertise of the Council, properly coordinated with 
Federal agency partners, can be a key element in a growing historic 
preservation program.
    Question 3a. The existing legislation has a budget ceiling of $4 
million and S. 1378 authorizes an open-ended budget.
    What is the current budget of the Advisory Council and how much is 
the Council requesting for FY06?
    Answer. The Council's FY 2005 budget was $4.536 million. The 
President's budget request for FY 2006 was $4.988 million and the 
Congress appropriated $4.837 million.
    Question 3b. Why should it be open-ended; why not raise it to $5 
million?
    Answer. First, the rationale for having permanent appropriations 
authority is based on the role that the Council now has in the historic 
preservation program. Its responsibilities for administering the 
Section 106 process alone make the Council a vital permanent part of 
the Federal establishment. Other responsibilities have been enumerated 
in previous answers. Second, raising the authorization to a fixed 
number presents the same challenge we are confronting now. When that 
number is reached, the Council must go through a formal legislative 
process to raise the ceiling. In the present case, $5 million will be 
insufficient to support the likely requests for FY 2007 and beyond. 
Even assuming no program growth, simply maintaining current level of 
operations will become impossible with a $5 million cap, given the 
annual rate of fixed cost escalation.
    Question 4. The Historic Preservation Fund and the Advisory Council 
both require reauthorization every five years to continue to operate. 
S. 1378 reauthorizes the Historic Preservation Fund for five years, but 
gives permanent authorization to the Council. What has the Council done 
to justify permanent authorization and why is permanent authorization 
needed?
    Answer. The Historic Preservation Fund operates on a five-year 
authorization cycle because the authorization is for the transfer of 
revenues from Federal offshore oil and gas leases into the Fund. It is 
appropriate for the Congress to review at reasonable intervals, such as 
five years (or ten as the National Park Service has proposed in its 
testimony), whether the proceeds from the leases and sales are 
sufficient to be the basis for the Fund and whether the Fund continues 
to need this level of support.
    The Council, on the other hand, is a permanent independent Federal 
agency with program responsibilities that are established in the NHPA 
and critical to the Federal government's historic preservation program. 
The Council should be viewed as a formal member of the Federal 
establishment, like the Commission of Fine Arts or the National Capital 
Planning Commission, which all share the common trait of being 
essential components of congressionally-created programs that promote 
defined national interests. The Council needs a permanent authorization 
so that it can determine its program and budget needs based on the 
normal process of executive branch request and legislative branch 
decision through the annual appropriations and oversight system.
    Furthermore, in the last four years the relationship between 
Federal asset preservation and heritage tourism has become inextricably 
linked and will provide an economic development tool that will continue 
for years to come. Now that the Council has firmly established the 
relationship between economic development, heritage tourism, and 
Federal asset management, authorization for the Council is not 
something that could logically terminate at an arbitrary date.
    Question 5a. S. 1378 does not address private property issues in 
the same way the House Resources Committee did in their Discussion 
Draft Document.
    Do you believe that 3rd parties should continue to be able to 
nominate or request eligibility for listing against the wishes of the 
property owner?
    Answer. The current NHPA prevents the Secretary of the Interior 
from listing a property in the National Register if the owner objects. 
This provision was enacted in 1980 at a time when Federal tax laws 
imposed a penalty on the owner of a historic commercial property who 
demolished his structure for redevelopment. That tax provision was 
subsequently eliminated, taking with it the rationale for allowing an 
owner to object to National Register listing. As the National Register 
is intended to be a comprehensive list of properties that are 
significant to the Nation's history, that significance is not a factor 
of an owner's desire to do as he wishes with his property.
    The only remaining linkage between the National Register and 
Federal law is through the Section 106 review process. All Section 106 
requires is that Federal agencies consider historic preservation 
factors when deciding whether to support or approve an activity. That 
decision can affect an owner's ability to use Federal assistance for a 
project that will harm historic properties. That was the original 
intent of Congress and remains true today.
    What we have learned is that some local jurisdictions impose strict 
controls through local regulation based on the Federal National 
Register designation. This process circumvents the normal strict due 
process protections for property owners that are found in almost all 
local preservation ordinances. We have a concern about this ``linkage'' 
and believe it is improper. However, this does not mean that Federal 
law should require an owner's consent before a National Register 
listing occurs. Rather, to the extent that Federal law can address the 
issue, it should discourage or bar the use of Federal listing in the 
National Register as an automatic trigger for the imposition of local 
regulations, which are far stricter than any Federal protective 
provision. We have conveyed that view to the House Resources Committee.
    We think that any remedy in this area should address the real 
issue, that of linkage of the National Register decision to the 
application of local preservation ordinances. Barring the listing of a 
worthy property on the National Register due to an owner's objection 
frustrates the original intent of Congress behind the National 
Register. There are better ways to address the problem: discourage or 
prohibit local jurisdictions from using National Register designation 
as the basis for the application of their local controls without 
adequate local due process.
    Question 5b. In light of the Supreme Court's Kelo Decision 
concerning a city's use of eminent domain authority, would it be 
appropriate for the Committee to take steps to address the shortcomings 
in the National Historic Preservation Act when it comes to protecting 
private property rights? After all, if we object to a city's use of 
eminent domain authority for third party development, then how can we 
stand by and allow third parties to prevent property owners from 
renovating their homes?
    Answer. As noted previously, the NHPA does not operate to impede a 
private property owner from taking any action with regard to private 
property through any inherent provision of the Act. Section 106 
requires only that a Federal agency that might financially assist or 
license an action that would affect the property take into account the 
effect of the action on the historic property. After doing so as 
prescribed by the Section 106 regulations (36 C.F.R. Part 800), the 
agency may choose to assist or allow the alteration or demolition of 
the property, regardless of its historic significance. Therefore, no 
change in the NHPA is needed in that regard. What does seem warranted 
is to prevent National Register designation from being used (or 
misused) to impose the stringent restrictions of local historic 
preservation ordinances. We have addressed that in the previous answer.
    Question 6. As you may be aware, Section 106 of the National 
Historic Preservation Act requires any Federal or federally assisted 
undertaking to determine its effect on ``. . . any district, site, 
building, structure or object that is included in or eligible for 
inclusion in the National Register.'' To me, that language along with 
the accompanying regulations means that an applicant must seek out and 
evaluate the effect of its project on every site, building, etc., both 
known and unknown. That just does not seem to be rational public 
policy. Would you agree that we should take a serious look at modifying 
the existing language in the Act?
    Answer. The implementation of this provision is actually quite 
reasonable and reflects almost 40 years of experience under the NHPA. 
In 1976, the Congress recognized that the National Register was far 
from complete and that limited Federal funding to support State surveys 
would leave that situation unchanged for years to come. It accordingly 
amended Section 106 to expand its scope from properties formally listed 
on the National Register to include those that might be eligible for 
listing. To implement this provision, the Council established a 
regulatory standard that requires Federal agencies to make a 
``reasonable and good faith effort'' to identify properties that may 
meet the criteria for listing. In consultation with the appropriate 
State Historic Preservation Officer (SHPO), agencies determine what 
constitutes such an effort, which often includes a survey of the 
project impact area, and then consults further with the SHPO to apply 
the National Register criteria of eligibility.
    This process is not unlike other kinds of resource assessments that 
Federal laws require an agency to conduct to determine the nature of a 
project's environmental impact. It has been incorporated into the 
planning processes of virtually all Federal agencies and functions 
smoothly and effectively. As a result, Federal agencies routinely 
participate in an orderly process that results in the necessary 
understanding of the nature and location of historic properties within 
project impact areas, providing a sound basis for planning and 
decisionmaking.
    It is important to recognize the results of this provision as 
currently implemented. Numerous historic properties of exceptional 
significance were not listed on the National Register at the time they 
were threatened by a Federal project and were factored into the 
planning process only because of the current requirement that Federal 
agencies identify properties that are eligible for but not yet listed 
on the National Register. The World Trade Center site in New York City, 
the Golden Gate Bridge in San Francisco, the Selma to Montgomery Voting 
Rights March Route in Alabama, and the Veterans Affairs Medical Center 
in Leavenworth, Kansas, are but a few of the important properties whose 
historic character would have not been considered in Federal project 
planning had the scope of Section 106 been limited to properties 
actually listed on the National Register. There are thousands more 
examples across the country.
    It should be pointed out that two classes of historic properties 
would suffer inordinately from a narrowing of Section 106. Sites 
important to Native Americans are rarely already listed on the National 
Register when Federal projects threaten their integrity. Lack of survey 
data, a reluctance by Indian tribes to reveal the location of sites for 
religious purposes, and fear of looting leave these important elements 
of Native American culture and history mostly outside the current 
National Register listings. Likewise, archeological sites are rarely 
identified before a Section 106 survey, until driven by the threat of 
destruction by a Federal project, their location is revealed. These 
properties would be essentially written out of Section 106 
consideration if the scope of the law were narrowed to listed 
properties.
    There is a legitimate concern where this Federal burden has been 
shifted to private applicants for Federal permits. Certain agencies, 
such as the Federal Communications Commission (FCC) and the Corps of 
Engineers, have abdicated their obligations under Section 106 and 
imposed requirements on applicants for Federal permits or licenses to 
undertake the identification and evaluation steps of Section 106. Years 
of practice have entrenched this distortion of the intent of Congress 
and have made it difficult to alter. However, the Council appreciates 
the problem and has taken steps to modify the requirements of Section 
106 when the only Federal involvement is the permitting of a project 
that is funded and carried out by a private entity.
    Working with the SHPOs, the FCC, the telecommunications industry 
and Indian tribes, the Council fashioned a Programmatic Agreement that 
limits the responsibility of private cell tower constructors, who are 
subject to FCC permits, to considering only those historic properties 
that can be found listed on the National Register, that have already 
been formally determined eligible, and that are on a supplementary list 
provided by the SHPO within a defined 30-day period. In sum, the 
applicant is presented with a defined universe of recognized historic 
properties and is exempted from any further duty to survey or identify 
historic properties.
    The Council believes that it has the authority and the capability 
to modify the application of the Section 106 process to address the 
concerns underlying the question. Using administrative tools, the 
Council can ensure the reasonable application of Section 106 without 
need for a statutory narrowing of the law that would have disastrous 
consequences for important historic resources. The tools that the 
Council can and has used include memorandums of agreement, programmatic 
agreements, program comments, and administrative exemptions.
    Question 7. What is the current role of the Council in 
administration of grants?
    Answer. The Council has no formal role in Federal grants 
administration with one exception. The recently enacted Preserve 
America grants program for FY 2006 directs the National Park Service to 
consult with the Council on the administration of the program. In that 
role, we have worked closely with the NPS on the development of the 
criteria and application for the grants. We will also jointly screen 
the applicants and make recommendations for grant awards. The actual 
administration of the program will be conducted by the NPS, using its 
existing Historic Preservation Fund system.
    We see this as a model for cooperating with other Federal agencies 
if S. 1378 is enacted. The Council brings a perspective and 
preservation expertise that can help shape the administration of a 
Federal grants program to better carry out the purposes of the NHPA 
while meeting the primary goals of the program.

     Responses of John Fowler to Questions From Senator Ken Salazar
    Question 1. I understand that the Advisory Council decided to close 
a small field office (with four staff) in Colorado. Why?
    Answer. As part of our ongoing assessment of Council organization 
and management, we looked at the changing role of the Council in the 
Section 106 process, resulting from regulation changes in 2001, and the 
impact of the new emphasis on Federal policy and program development. 
This led to an evaluation of the current arrangement of a headquarters 
office in Washington, D.C., and a sole field office in Colorado. We 
examined program needs, customer service, and cost implications, 
including travel, space, and personnel factors. We also looked closely 
at whether the premises that were the basis for the original 1973 
decision to create the field office were still valid.
    This examination was enlightening. While we agreed that having a 
presence in the West was beneficial to servicing agencies and SHPOs 
located in the West, we also realized that much has changed in the way 
our customers and we do business since 1973. Increasingly, our business 
is conducted by e-mail, fax, teleconference, and videoconference. 
Section 106 case review materials move electronically and decisions are 
more often made without the need for face-to-face meetings. Somewhat to 
our surprise, travel costs when such meetings are necessary proved to 
be only marginally higher if field staff were dispatched to western 
locations from Washington instead of Denver, due to significant changes 
in government contract airfares. In the end, we posed the question of 
whether we would create a western field office today if we did not have 
one and found the answer to be ``No''.
    Also influencing our assessment was the realization that 
redirecting the personnel costs of the existing field staff to support 
new positions at Council headquarters would allow us to fund six 
positions with the resources currently supporting the four western 
office positions. This would help us address concerns recently raised 
about the adequacy of staff resources to meet the Council's 
increasingly diverse workload.
    Question 2. With this office closing, there will be no field 
offices and the ACHP will be entirely out of Washington, DC. How will 
the ACHP insure that the historic preservation needs of Colorado and 
the Western U.S. will be heard and met?
    Answer. There is always much concern and anxiety when established 
relationships are changed. We are sensitive to the uncertainties and 
apprehension that may ripple through the ranks of SHPOs, Federal 
agencies, and others who have worked with our western office. We are 
all committed to making this transition as smooth and efficient as 
possible and are working with our western customers to determine how we 
can better serve them with our realigned organization over the long 
run. We have met several times with western SHPOs, as a group and 
individually, and the National Conference of SHPOs has established a 
task force to work with us on the transition. We will be making similar 
efforts to reach out to our other partners and customers in the near 
future.
    We have already committed to certain steps to accommodate service 
to the West: adjusting work hours for some staff in Washington so that 
they are more accessible to western constituents; filling new positions 
with employees experienced with western issues, such as public lands 
management; scheduling more training sessions in western States; and 
participating regularly in meetings of western SHPOs, Federal agencies, 
and tribal organizations. We will continue to develop and refine ways 
to improve the delivery of Council services to the West.
    The program needs of the Western U.S., Federal agencies, and the 
Council have changed greatly since the Lakewood office was established 
in 1973. In the intervening years, the work of the ACHP staff changed 
from one largely focused on overseeing an emerging regulatory program 
and establishing the role of the Council, other stakeholders, and the 
public to one focused on fewer, high-profile cases and pursuing broader 
changes to agency programs and policies. The ACHP created partnership 
agreements with Federal agencies that are program-specific, rather than 
being geographically based. ACHP staff needs to be able to offer 
assistance to stakeholders and the public nationwide that focuses on 
agency programs and the effects of these programs on historic 
properties. With its staff split between Washington and Lakewood, the 
ACHP found that it did not have the staff flexibility to meet these 
needs; with its entire staff located in Washington, the ACHP will be 
better able to respond to changing priorities and deliver a broad range 
of assistance to stakeholders and the public nationwide.
    Question 3. Will you provide my office with more information on the 
Colorado office closing? Please describe the impacts this closing will 
have on Colorado and our country's preservation goals? How will ACHP 
mitigate these impacts?
    Answer. We would be pleased to keep you apprised of further 
developments as we complete the transition. While Colorado will lose 
its local Council office (a unique circumstance) and the unquestionable 
benefits that proximity provides, the Council believes that it will be 
able to maintain a high level of service to the State and those 
involved in preservation issues. On the national level, the realignment 
of Council staff to a consolidated office in Washington will greatly 
improve our ability to fulfill our duties in the national historic 
preservation program. It will augment our resources, position our staff 
where they can better interact with Federal agencies and national 
preservation organizations to deal with national program and policy 
issues, and will enable us to pursue more effectively the mission that 
the Congress has entrusted with the Council. These positive impacts do 
not require mitigation.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

       Statement of Hon. Michael N. Castle, U.S. Representative 
                             From Delaware

    Dear Mr. Chairman: Today I wish to join my colleagues, Senator 
Carper and Senator Biden, in offering my support for the Delaware 
National Coastal Special Resources Study Act and in asking this 
Subcommittee to support our efforts to consider establishing a national 
park in the State of Delaware. As the only State without a national 
park, Delaware's time has surely arrived. I join with my colleagues 
today to ask that the Secretary of the Interior consider studying the 
potential for a national park in Delaware.
    A unit of the National Park Service in the State of Delaware would 
not only boost tourism, but would also highlight Delaware's history and 
sense of community. Whether it's recreation, exploring the history and 
culture, or discovering the natural resources, the benefits of working 
within the National Parks Service are many. The National Parks Service 
collaborates directly with communities to preserve and care for 
neighborhood treasures and to educate visitors about science, nature, 
history, and culture.
    Delaware is already home to many unique treasures, from its beaches 
to historical landmarks to wildlife refuges. National parks are a 
wonderful way to protect irreplaceable public assets and to secure them 
for future generations. Providing for their protection and preservation 
as well as their use, enjoyment and understanding, are some of the many 
benefits national parks provide.
    I commend my colleague, Senator Carper, for pursuing legislation to 
begin to explore the potential for a unit of the National Park Service 
in the great State of Delaware. A national park in Delaware would 
greatly enhance the public's understanding of all the First State has 
to offer--putting the First State firmly on the ``park'' map once and 
for all.
    I am proud to join my colleagues in supporting this legislation.
                                 ______
                                 
        Statement of Hon. Nancy L. Johnson, U.S. Representative 
                            From Connecticut

    Mr. Chairman and members of the Committee, thank you for inviting 
me to testify today on S.435, a bill to amend the Wild and Scenic 
Rivers Act to designate a segment of the Farmington River and Salmon 
Brook in the state of Connecticut for study for potential addition to 
the National Wild and Scenic Rivers System. I have introduced identical 
legislation in the House with my colleague Congressman Larson and wish 
to focus on the substantial impact a designation will have on my 
constituents and the region.
    The bill commissions a feasibility study to evaluate whether the 
lower Farmington River and Salmon Brook qualify as a Wild and Scenic 
Partnership River within the National Park Service's Wild and Scenic 
Rivers System. The lower Farmington River is defined as the 40 mile 
stretch between the lower Collinsville Dam in Burlington and the 
Rainbow Dam in Windsor in the First and Fifth congressional districts.
    The Farmington River and Salmon Brook's recreational and 
environmental contributions to our state are well-known, and we must 
protect them for future generations. The 14 miles of the Farmington 
River's West Branch, designated as a Wild and Scenic Partnership River 
in 1994, is a resounding environmental and economic success story. 
Partnership designation for the West Branch has fostered public-private 
partnerships to preserve the area's environment and heritage while 
yielding economic benefits to river towns.
    The West Branch of the river is home to trout, river otter and bald 
eagle populations, and historic structures still grace its banks. 
Fishermen, hikers, canoeists and kayakers enjoy the river and its banks 
year-round. In addition, a 2003 study by North Carolina State 
University found that partnership designation resulted in millions in 
economic activity and increased property values in the river towns of 
Barkhamsted, Canton, Colebrook, Hartland, and New Hartford.
    I hope to see the rest of the Farmington River, as well as Salmon 
Brook, enjoy similar success. This new initiative is an ideal way to 
extend that protection and showcase the rivers unique cultural and 
recreational resources.
    This legislation has broad bipartisan support, I would like to 
thank the Energy and Natural Resources Committee for bringing it 
forward and I encourage my colleagues to support this legislation.
                                 ______
                                 
         Statement of Hon. John B. Larson, U.S. Representative 
                            From Connecticut

    Chairman Thomas, Ranking Member Akaka and members of the 
Subcommittee on National Parks, thank you for this opportunity to 
express my strong support for S. 435, the Lower Farmington River and 
Salmon Brook Wild and Scenic River Study Act. As a cosponsor of the 
companion legislation in the House, I join the entire Connecticut 
delegation in supporting the federal designation and protection of the 
lower section of the Farmington River. I would also like to commend and 
thank my two delegation colleagues, Senator Dodd and Senator Lieberman, 
for their leadership on this issue.
    Since 1968, the National Wild and Scenic Rivers System has 
protected the Nation's most valuable rivers. Through this system, 
rivers that possess remarkable scenic, recreational, natural, and 
cultural values are preserved in their free-flowing condition and are 
protected for the benefit and enjoyment of present and future 
generations. Designated rivers are afforded the federal protection 
necessary to maintain their resources and character.
    Connecticut is fortunate to be the home of the Farmington River, 
which hosts a wealth of natural beauty, a variety of wildlife, and a 
cultural past important to our state, region, and nation. In 1994, 
Congress recognized the upper section of the Farmington--a 14-mile-long 
stretch that runs from the base of the Goodwin Dam in Hartland to the 
downstream border of Canton and New Hartford, as Wild and Scenic. As a 
federally protected river segment, the natural splendor and resources 
of the Upper Farmington have been managed cooperatively on the local, 
state and federal level for over a decade. Regrettably, Salmon Brook--a 
major tributary and the Lower Farmington running 40 miles from Canton 
to its confluence with the Connecticut River in Windsor does not share 
the same federal protection. Continued threats to the River's water 
quality reinforces the urgent need for a collaborative effort to 
preserve the unique character of both the Upper and Lower Farmington, 
as well as Salmon Brook, for present and future generations.
    The Lower Farmington is a rare natural, cultural and recreational 
area for the people of the First District and throughout the entire 
state of Connecticut. The River's free-flowing waters support a rich 
ecological system and serves as the habitat for diverse fish species, 
including the American shad and the Atlantic salmon. The River is also 
home to trout, river otter and bald eagle populations. Since the 1600s, 
the River has prominently been featured in our state history, from the 
Tunxis Native American tribes who settled on its shores to the mills 
and dams that sprung-up as part of the Industrial Revolution. Today, 
people from across Connecticut can enjoy the majestic views of the 
River along the Farmington River Trail--a former railroad line that 
when completed will run 26 miles along the shores of the Farmington.
    Mr. Chairman, I thank you for holding this hearing and giving me 
the opportunity to submit testimony in support of S. 435 and H.R. 1344. 
I am confident that the Lower Farmington and Salmon Brook are essential 
additions to the Wild and Scenic River System and I look forward to the 
support of the Committee on this important issue.
                                 ______
                                 
              Central Connecticut State University,
                                Department of Anthropology,
                               New Britain, CT, September 19, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: Thank you very much for the opportunity to 
submit testimony in support of Senate Bill 435, The Lower Farmington 
River and Salmon Brook Wild and Scenic River Study Act of 2005.
    The lower Farmington River has been a vital resource for 
inhabitants of its valley for more than 10,000 years. This fact is 
amply demonstrated by the evidence we have recovered in an ongoing 
archaeological survey, The Farmington River Archaeological Project 
(FRAP). The more than 200 archaeological sites that we have 
investigated represent the remnants of ancient villages, quarries, 
burial grounds, fishing grounds, and hunting territories--in essence, 
the communities and work places of the past inhabitants of the valley. 
These archaeological sites are historical resources worthy of the 
consideration and protection that may be afforded by Wild and Scenic 
designation of the river.
    For example, the Alsop Meadow site is located along the Farmington 
River in the town of Avon, Connecticut. Standard practice in 
archaeological research is to excavate only a small fraction of a site, 
providing for future excavation when new technologies and methods will 
allow for more complete recovery and analysis. In just the 25% of the 
site excavated, we recovered more than 16,000 artifacts, most 
reflecting the production of stone tools--spear points, drills, knives, 
scraping tools, and axes.
    The Alsop Meadow site is particularly important because, until its 
excavation, it had been assumed that the ancient inhabitants of the 
valley largely were interlopers, people who actually lived in the 
Connecticut River Valley and who visited the Farmington only 
seasonally. However, virtually every one of the artifacts recovered at 
this site was made from a stone type available only in the Farmington 
Valley. Connecticut Valley residents visiting the Farmington might have 
been expected to bring some of their Connecticut Valley tools with 
them, but we found no such thing at Alsop. The site is nearly 5,000 
years old and presents future archaeologists with a treasure trove of 
data, but only if the site is protected from destruction. Wild and 
Scenic designation of the Lower Farmington River can contribute to that 
protection.
    In Windsor, Connecticut, just south of the confluence of the 
Farmington and Connecticut Rivers, people lived 2,000 years ago in a 
site we call Loomis II. The two rivers coming together served much in 
the manner of a modern highway interchange and the inhabitants of the 
Loomis II site, took advantage of their location. We see direct 
evidence of this in the diversity of resources the inhabitants used to 
make their tools, and the distance and direction from which those 
resources came: quartz and basalt from western Connecticut, flint from 
the northwest in New York State, and jasper from the southwest, all the 
way from Pennsylvania. The Loomis II site provides a wealth of 
information about ancient trading networks and, as such, is a valuable 
historical resource that deserves the measure of protection that Wild 
and Scenic designation might provide.
    The Avon Old Farms Brook site, also in Avon, is located at the 
confluence of a spring-fed stream and the Farmington River. There, deep 
in the loam bordering the Farmington, we found a remarkably intact, 
4,250-year-old roasting platform--a stone cobble surface on which the 
ancient inhabitants of the valley roasted deer meat.
    I tell my students that archaeological research is the equivalent 
of detective work, but, unlike detectives, we don't examine the scene 
of a crime; we investigate the scene of a life. This can clearly be 
seen at Old Farms Brook. Burned wood from the cooking fire and bits and 
pieces of deer bone reveal the function of the platform. Immediately 
adjacent to the stone grilling surface we recovered an almost perfectly 
formed spear point that had been intentionally jabbed into the ground. 
Only its delicately flaked tip was missing, almost certainly broken off 
inside the animal it had killed. In other words, we detectives of the 
past were able to uncover the ``smoking gun,'' the bones of the 
deceased, and the platform on which it was cooked. This level of 
preservation which, in turn, supports a remarkable degree of precision 
in our interpretation, is stunning. Protecting a historical resource 
like the Avon Old Farms Brook site is enormously important and, again, 
Wild and Scenic designation for the lower Farmington River would be a 
significant step toward that protection.
    Certainly, I recognize that many will submit testimony in support 
of this bill emphasizing the importance of Wild and Scenic designation 
in terms of very practical and undoubtedly significant issues including 
clean water, property values, pollution, and recreation. Some might 
consider the additional benefit of affording protection to resources of 
historical or cultural meaning a less important contribution of Wild 
and Scenic designation. I suppose, as an archaeologist whose focus has 
tong been on investigating the lives of the ancient inhabitants of the 
Farmington River Valley, I take a longer view than most on the proposed 
legislation. You will frequently hear people today talk about the 
obligation of our generation as ``stewards'' of the environment. I am 
here to tell you that the Farmington Valley has provided a way of life 
for more than five hundred generations of such stewards. I respectfully 
suggest that we owe it to the next five hundred to carefully consider 
the important role played by the Farmington River in the lives of the 
residents of Connecticut and afford it the protection that Wild and 
Scenic designation along its tower reaches will provide.
    Thank you very much for your kind attention to my testimony. I 
genuinely appreciate your consideration of a Wild and Scenic 
designation study for the lower reaches of the Farmington River and 
Salmon Brook.
            Respectfully submitted,
                                                   Ken Feder, Ph.D.
                                 ______
                                 
                   Farmington River Coordinating Committee,
                           Pleasant Valley, CT, September 20, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
Re: Testimony of the Farmington River Coordinating Committee in Support 
of S. 435
    Honorable Chairman Thomas and Members of the Committee: After a 
unanimous vote of the 10 member organizations of the Farmington River 
Coordinating Committee (FRCC), I write this letter to support S. 435, 
``The Lower Farmington River and Salmon Brook Wild & Scenic Study Act 
of 2005.'' The FRCC was established in 1994 when 14 miles of the Upper 
Farmington River were added to the National Wild and Scenic Rivers 
System. The Committee is made up of representatives of the towns 
bordering the designated stretch (Barkhamsted, Canton, Colebrook, 
Hartland, New Hartford) and other organizations and agencies with a 
stake in the river (CT Department of Environmental Protection, 
Farmington River Anglers Association, Farmington River Watershed 
Association, Metropolitan District Commission, and the National Park 
Service). The coordinating committee implements the Upper Farmington 
River Management Plan and continues to build the relationships and 
resources needed to protect and enhance the outstanding resources of 
the Upper Farmington River: historic buildings and areas (including the 
Hitchcock Chair Company), cold-water fisheries (particularly for 
trout), recreational opportunities (kayaking, canoeing, hiking), and 
wildlife habitat (including bald eagles).
    It has been eleven years since the FRCC was established and it has 
accomplished a great deal to preserve and protect the Farmington 
River's outstanding resources. Based on a Partnership Wild & Scenic 
model, the FRCC strongly represents and carries forward a true 
partnership between local, state and federal interests. This 
partnership has been able to leverage dollars and expertise for many 
projects that otherwise would not have been possible. As an example of 
the many things we've accomplished, I am including information from 
this year's Annual Report. Of course, this is a small portion of the 
many things that we've accomplished over the past decade:
Membership
    The addition of the Farmington River Anglers Association to FRCC 
was a major event of the year--this association links FRCC to many 
people who enjoy and care for the Farmington River. FRAA's mission is 
to ``Preserve, Protect and Enhance the Farmington River Fishery.''
Outreach and Education
    10 Years of Wild and Scenic Designation Anniversary Celebration--
August 26, 2004--FRCC held a celebration with about 100 attendees. 
Entertainment was provided by David Paton and the Magic River Band and 
catering by Blue Sky Foods.
    FRCC Website Improvements and Website training--The FRCC website 
has been maintained by two FRCC volunteers--Mario Santoro and Chris 
Bailey. Mario and Chris received training on Dreamweaver early in the 
year.
    FRCC Newsletter--FRCC produced and distributed a spring newsletter 
to over 300 riverfront landowners and town officials.
    Kiosks Improvements--Two back sides of our kiosks were produced 
this year. One at Mathies Grove parking area and one at the Church Pool 
at the MDC parking area.
Resource Stewardship
    Farmington River Riverbank Assessment--Milone and MacBroom 
completed a draft report of the riverbank assessment.
    Upper Farmington River Water Quality Monitoring--FRWA completed 
streamwalk trainings and its first round of streamwalks. FRWA also 
conducted water quality testing at various locations on the river. A 
database is being developed in cooperation with Farmington Valley 
Health District and CT DEP.
    Land Protection--Along with FRAA, FRCC contributed to FRWA's effort 
to protect Sugar Meadow Island in Barkhamsted which is now held by the 
Barkhamsted Land Trust.
    Aerial Photos--FRCC had aerial photos taken of the towns along the 
14-mile Wild and Scenic stretch of river. The photos will be helpful in 
land protection efforts and monitoring the health of the river over 
time.
    Plans of Conservation and Development--FRCC provided comments on 
both New Hartford's and Barkhamsted's updates of their Plans of 
Conservation and Development.
Policy and Administration
    FRCC Grants Program--FRCC revamped its grants program to allow 
larger amounts and fewer deadlines. Grants were given to the 
Barkhamsted Conservation Commission for publicizing a public meeting on 
the possible ridgeline zoning; the New Hartford Land Trust for the 
Riverwalk project; Colebrook Land Conservancy for closing costs 
associated with protecting the Corliss 100 property.
    Ongoing Support to the Squires Restoration (FRCC Headquarters)--
FRCC continues to support the efforts to restore and enhance the 
Squires Tavern.
    New Project Tracking system--FRCC established a new tracking system 
to keep track of projects and finances.
    River Rally and Professional Development trainings--Several members 
of FRCC attended the National River Rally. Pat Keener and Mario Santoro 
attended a series of sessions by the Center for Watershed Protection 
and accrued 12 hours of free technical assistance from CWP to share.
Cooperative Projects
    New Hartford Riverwalk--FRCC continued to work with New Hartford to 
help plan and implement the town's riverwalk project.
    Enhanced Fish Habitat--FRCC helped coordinate a cooperative effort 
between CT DEP, ConnDOT, and USGS that enhanced the fish habitat below 
the Riverton bridge. Two large trees had fallen and one was cabled to 
the bank for some much needed ``large woody debris'' that will not 
interfere with boaters.
    The Farmington River Coordinating Committee would like to encourage 
the Senate Energy and Natural Resources Committee to support Senate 
Bill #S435 and to authorize the study for the Lower Farmington River 
and Salmon Brook. As you might suspect, our work on the Upper 
Farmington River is related to the future successes of conservation 
efforts on the Lower Farmington River and Salmon Brook. The entire 
Farmington River is a valuable natural resource for the State of 
Connecticut, it is important to preserve and protect it, and it is 
logical to consider conservation efforts on the entire River together.
            Sincerely,
                                        S. Patricia Keener,
                                                             Chair.
                                 ______
                                 
             Statement of Quinn McKew, Associate Director, 
                         American Rivers, Inc.

    Mr. Chairman, members of the Subcommittee, thank you for the 
opportunity to testify on S.435, the Lower Farmington River and Salmon 
Brook Wild and Scenic River Study Act of 2005. My name is Quinn McKew, 
and I am the Associate Director for the Wild Rivers program for 
American Rivers. Since its founding in 1973, American Rivers has worked 
with our grassroots partners to protect rivers under the Wild and 
Scenic Rivers Act and has actively assisted federal agencies, states 
and local groups with river conservation efforts. American Rivers is a 
45,000-member organization committed to the protection and restoration 
of the nation's outstanding rivers.
    I would like to thank Senator Dodd for introducing S. 435, which 
would amend the Wild and Scenic Rivers Act to designate a segment of 
the Farmington River and Salmon Brook in the State of Connecticut for 
study for potential addition to the National Wild and Scenic Rivers 
System. The Farmington is truly a national treasure, providing a home 
to the only nesting bald eagles in the state of Connecticut. In 
recognition of its outstanding fish, wildlife and scenic values and 
importance to the citizens of Connecticut, the Upper Farmington River 
was designated a Partnership Wild and Scenic river in 1994. This study 
bill for the Lower Farmington and Salmon Brook will help advance the 
protection of the entire river system and has strong local and state 
support.
    The Lower Farmington reflects the beauty and character of 
Connecticut. Every year, thousands of people canoe, kayak, and fish the 
waters of the Farmington. They come to visit the state parks, forests 
and historic mills that dot the river's edge. The river is an historic 
Atlantic Salmon Fishery, and efforts are underway by the state to 
restore these important fish. All these factors--recreational value, 
rare wildlife, outstanding fisheries, and a rich history--make the 
Lower Farmington River and Salmon Brook a natural for inclusion in the 
National Wild and Scenic Rivers System.
    The Farmington River is also a significant economic asset to the 
surrounding communities. By studying the Lower Farmington, and 
ultimately including it in the National Wild and Scenic River System, 
Congress will protect the economies of the communities that border the 
river. In 2003, North Carolina State University and American Rivers 
completed an economic study of the designated Farmington Wild and 
Scenic River. The study shows how the river's pristine character is one 
of the main attractions that draw visitors to the region. It also shows 
how deteriorating river conditions could lead to significant revenue 
loss in the surrounding communities. According to the study, river-
based tourism brings nearly $4 million into communities around the 
Farmington River each year, and recreational activities on and around 
the river bring nearly $9.5 million of economic benefit annually. The 
study also demonstrated that the river's wild condition significantly 
increased the value of adjacent lands.
    The community-based process that preceded the introduction of S.435 
is truly a model of outreach and consensus building. Stakeholders and 
local governments were consulted every step along the way, leading to 
strong community support for S. 435. This high level of existing local 
commitment to protecting the river is a good indicator that long-term 
protection of the river, through a federal-state-local partnership 
model of wild and scenic river designation, will be successful. This 
model is gaining momentum throughout the Northeast and resulted in 
passage of bills in the 107th Congress to designate the Eightmile River 
and the Wekiva, Lower Delaware and White Clay Creek in the 106th 
Congress. Unplanned growth is a threat to the unique, scenic qualities 
that are the basis for recreation tourism in the area. The wild and 
scenic river designation process will ensure a long-term plan for the 
river that recognizes its significance as a natural resource, and can 
help nearby towns effectively manage growth.
    I appreciate the opportunity to submit testimony to the 
Subcommittee today.
                                 ______
                                 
  Statement of Neil W. Kraner, Past President, and Dudley W. Alleman, 
             President, Salmon Brook Watershed Association

    The Salmon Brook Watershed Association is a non-profit organization 
dedicated to the preservation, use and enhancement of the Salmon Brook. 
We are pleased to partner with the Farmington River Watershed 
Association and other sister organizations in support of the Senate 
Bill to initiate the feasibility study for the Wild and Scenic 
designation of the Salmon Brook.
    The East Branch, West Branch and main stem of the Salmon Brook are 
together a major tributary to the Farmington River. Salmon Brook lies 
within a 160 square mile watershed, primarily in a rural setting.
    The brook has many cultural, natural and recreational features. It 
has played an important role in the settlement and formation of the 
Town of Granby. People moved north to settle a place called ``Sammon 
Brooke''. The community was later known as ``Salmon Brook 
Ecclesiastical Society'' and incorporated as Granby in 1786. The 
Farmington Canal followed along a portion of the brook and was Granby's 
link to the sea and the western frontier. Mills a long the brook 
provided power for the local manufacturing enterprises.
    The East and West Branch have spectacular gorges and waterfalls. 
The town's first health officer, Dr. Alfred Weed, wrote in 1898, ``. . 
. Our sparkling brooks . . . born of springs far up on the 
mountainsides, where water in its virgin purity exists.'' Over 100 
years later the brook still enjoys high water quality and is one of the 
few brooks in Connecticut with a self-supporting native brook trout 
population. It is also a significant habitat for Atlantic Salmon and is 
used for salmon stocking programs. The brook is home to a wide 
diversity of animal and plant life, including at least one species of 
rare wildflower. The Slimy Sculpin is a small fish that only lives in 
clear, cold streams and it is frequently caught (and released) within 
the nets of the volunteers participating in the annual 
macroinvertebrate survey. Salmon Brook consistently ranks among the top 
streams in the state of Connecticut for water quality through the 
surveys.
    The brook at Holcomb Farm Learning Center is a significant natural 
resource for educational opportunities for local and inner city youth. 
This past summer the Salmon Brook Watershed Association published a 
stream guide to educate streamside owners and others who enjoy the 
brook the importance of its protection.
    Numerous activities including swimming, kayaking and picnicking are 
all available and enjoyed throughout the Salmon Brook. Fishing is 
popular in all portions of the brook. It is renowned among anglers as a 
prime destination for fly fishing, especially for native trout as well 
as stocked fish. Bryan's Landing is a handicapped accessible area built 
by volunteers near the center of town. Eagles, ospreys and waterfowl 
are often seen near the brook. Visitors to the McLean Game Refuge, 
established by the late Senator George P. McLean and now consisting of 
over 4000 acres, may hike the many trails along the West Branch.

                                    

</pre></body></html>
